Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
 NATIONAL INCIDENCE AMONG
  MEDICARE BENEFICIARIES




                    Daniel R. Levinson
                     Inspector General

                     November 2010
                     OEI-06-09-00090
   E X E C U T I V E                            S U M M A R Y



                  OBJECTIVES
                  To estimate the national incidence of adverse events for hospitalized
                  Medicare beneficiaries, assess the preventability of such events, and
                  estimate associated costs to Medicare.


                  BACKGROUND
                  The term “adverse event” describes harm to a patient as a result of
                  medical care, such as infection associated with use of a catheter. The
                  term “never events” refers to a specific list of serious events, such as
                  surgery on the wrong patient, that the National Quality Forum (NQF)
                  deemed “should never occur in a health care setting.” The Tax Relief
                  and Health Care Act of 2006 mandates that the Office of Inspector
                  General report to Congress regarding the incidence of never events
                  among Medicare beneficiaries, the payment for services in connection
                  with such events, and the Centers for Medicare & Medicaid Services
                  (CMS) processes to identify events and deny payment.

                  We selected a nationally representative random sample of 780 Medicare
                  beneficiaries from all beneficiaries discharged during October 2008.
                  Physician reviewers determined (1) whether an adverse event occurred,
                  (2) whether the event was on the NQF list of Serious Reportable Events
                  or the Medicare list of hospital-acquired conditions (HAC), (3) what the
                  level of harm was to the patient, and (4) whether the event was
                  preventable. To establish an estimated adverse event incidence rate, we
                  included events on the NQF and the HAC lists and events resulting in
                  the most serious harm as defined by a patient harm index (prolonged
                  hospital stay, permanent harm, life-sustaining intervention, or death).
                  We also determined the cost to Medicare for hospital care resulting from
                  the events. Lastly, we identified additional events that resulted in
                  temporary patient harm but were not comparable to the more serious
                  events in our overall rate and assessed their preventability and cost.


                  FINDINGS
                  An estimated 13.5 percent of hospitalized Medicare beneficiaries
                  experienced adverse events during their hospital stays. Of the
                  nearly 1 million Medicare beneficiaries discharged from hospitals in
                  October 2008, about 1 in 7 experienced an adverse event that met at
                  least 1 of our criteria (13.5 percent). This rate projects to an estimated


OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   i


E X E C U T I V E                 S U            M M A R Y


                      134,000 Medicare beneficiaries experiencing at least 1 adverse event in
                      hospitals during the 1-month study period. We calculated incidence
                      rates for adverse events that met our three criteria: 0.6 percent of
                      beneficiaries had an NQF Serious Reportable Event, 1.0 percent had a
                      Medicare HAC event, and 13.1 percent experienced an adverse event
                      resulting in the four most serious categories of patient harm. An
                      estimated 1.5 percent of Medicare beneficiaries experienced an event
                      that contributed to their deaths, which projects to 15,000 patients in a
                      single month.
                      An additional 13.5 percent of Medicare beneficiaries experienced
                      events during their hospital stays that resulted in temporary harm.
                      Temporary harm events are those that require intervention but do not
                      cause lasting harm. Although many cases represent fairly minor
                      occurrences, such as hypoglycemia, others were classified as temporary
                      harm only because the patients were in the hospital for lengthy periods
                      as a result of other, more serious, diagnoses, allowing hospitals enough
                      time to address the harm prior to discharge. Additionally, 28 percent of
                      beneficiaries who experienced adverse events also had temporary harm
                      events during the same stay.
                      Physician reviewers determined that 44 percent of adverse and
                      temporary harm events were clearly or likely preventable.
                      Physicians determined that 44 percent of all events were preventable
                      and 51 percent were not preventable. (For the remaining 5 percent of
                      events, physicians were unable to make determinations.) Events
                      related to surgery or procedures were less likely to be preventable than
                      other types of events, such as hospital-acquired infections. Preventable
                      events were linked most commonly to medical errors, substandard care,
                      and lack of patient monitoring and assessment. Physician reviewers
                      assessed events as not preventable when they occurred despite proper
                      assessment and care or when the patients were highly susceptible to the
                      events due to health status. Nearly all events on the NQF and Medicare
                      lists were assessed as preventable, a key criterion of both lists.
                      Hospital care associated with adverse and temporary harm events
                      cost Medicare an estimated $324 million in October 2008.
                      Sixteen percent of sample beneficiaries in the Medicare Inpatient
                      Prospective Payment System who experienced events incurred
                      additional Medicare costs as a result. The added costs equate to an
                      estimated 3.5 percent of Medicare’s expenditure for inpatient care
                      during October 2008. To give these figures an annual context,


    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   ii


E X E C U T I V E                 S U            M M A R Y


                      3.5 percent of the $137 billion Medicare inpatient expenditure for
                      FY 2009 equates to $4.4 billion spent on care associated with events.
                      Two-thirds of Medicare costs associated with events were the result of
                      entire additional hospital stays necessitated by harm from the events.
                      Additionally, these Medicare cost estimates do not include additional
                      costs required for followup care after the sample hospitalizations.


                      RECOMMENDATIONS
                      As the Federal Government’s principal agency for protecting the health
                      of Americans, the Department of Health & Human Services (HHS) is
                      uniquely positioned to lead national efforts to reduce adverse events in
                      hospitals. As part of a national strategy to improve health care quality
                      mandated by the Patient Protection and Affordable Care Act (ACA),
                      HHS is to identify areas that have the potential for improving health
                      care quality. Because many adverse events we identified were
                      preventable, our study confirms the need and opportunity for hospitals
                      to significantly reduce the incidence of events. A number of agencies
                      within HHS share responsibility for addressing this issue, most
                      prominently the Agency for Healthcare Research and Quality (AHRQ)
                      as a coordinating body for efforts to improve health care quality and
                      CMS as an oversight entity and the Nation’s largest health care payer.

                      Therefore, we recommend the following:
                      AHRQ and CMS should broaden patient safety efforts to include
                      all types of adverse events. This broader definition would apply to
                      a number of activities, including setting priorities for research,
                      establishing guidelines for hospital reporting, developing prevention
                      strategies, measuring health care quality, and determining payment
                      policies.
                      AHRQ and CMS should enhance efforts to identify adverse events.
                      Identifying adverse events assists policymakers and researchers in
                      directing resources to the areas of greatest need, setting clear goals for
                      improvement, assessing the effectiveness of specific strategies, holding
                      hospitals accountable, and gauging progress in reducing incidence.

                         AHRQ should sponsor periodic, ongoing measurement of the
                          incidence of adverse events.

                         AHRQ should continue to encourage hospital participation with
                          Patient Safety Organizations, entities intended to receive adverse



    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   iii


E X E C U T I V E                 S U            M M A R Y


                          event reports from hospitals, and forward the information to a
                          national AHRQ database.

                         CMS should use Present on Admission Indicators in billing data to
                          calculate the frequency of adverse events occurring within hospitals.

                      CMS should provide further incentives for hospitals to reduce the
                      incidence of adverse events through its payment and oversight
                      functions. The ACA makes several changes to the HAC policy,
                      including allowing the Secretary of HHS to expand the list of HACs.
                      The ACA gives the HAC policy greater significance by using the list of
                      HACs to implement Medicare payment penalties, create performance
                      measures, and prohibit Medicaid payments for associated care. The
                      conditions of participation for Medicare and Medicaid require that
                      hospitals have programs to demonstrate quality improvement where
                      evidence shows practices can improve outcomes.

                         CMS should strengthen the Medicare HAC policy, such as by
                          expanding the policy to include more events that harm beneficiaries.

                         CMS should look for opportunities to hold hospitals accountable for
                          adoption of evidence-based practice guidelines.


                      AGENCY COMMENTS
                      We received comments on the draft report from AHRQ and CMS.
                      AHRQ concurred with our recommendations, stating that adverse
                      events affect hospital patients at an “alarming rate” and that it must
                      continue working to improve patient safety. AHRQ stated that it
                      intends to foster continued improvement in both identifying and
                      reducing adverse events through operational programs, research efforts,
                      and further collaboration with other agencies. CMS also concurred with
                      our recommendations, stating that it is committed to the reduction of
                      adverse events in hospitals and other health care settings and that
                      although it has taken significant steps to address these issues, more
                      work needs to be done. CMS stated that it will “aggressively pursue”
                      broadening the scope and definition of patient safety efforts to be more
                      inclusive of various types of adverse events and more closely monitor
                      and address hospital quality of care. CMS also outlined several current
                      and planned efforts to both create incentives and provide support for
                      patient safety improvements by hospitals.

                      We made minor changes to the report based on technical comments.

    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   iv


       T A B L E                   O F              C O N T E N T S

                      EXECUTIVE SUMMARY .....................................i



                      INTRODUCTION ........................................... 1


                      F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                        An estimated 13.5 percent of hospitalized Medicare beneficiaries
                        experienced adverse events during their hospital stays. . . . . . . . . . . . . 15

                        An additional 13.5 percent of Medicare beneficiaries experienced
                        events during their hospital stays that resulted in temporary harm . . . 20

                        Physician reviewers determined that 44 percent of adverse events
                        and temporary harm events were clearly or likely preventable . . . . . . . 22

                        Hospital care associated with adverse events and temporary harm
                        events cost Medicare an estimated $324 million in October 2008 . . . . . 27


                      R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                        Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


                      A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
                        A: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . . . . . 35

                        B: National Quality Forum Serious Reportable Events . . . . . . . . . . . . 37

                        C: Medicare Hospital-Acquired Conditions . . . . . . . . . . . . . . . . . . . . . . 38

                        D: Glossary of Selected Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                        E: Methodology for Identifying Events and Determining
                           Preventability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

                        F: Estimates, Confidence Intervals, and Key Statistics . . . . . . . . . . . . 46

                        G: Rates of Adverse Events and Temporary Harm Events by
                           Patient Days and Hospital Admissions . . . . . . . . . . . . . . . . . . . . . . 50

                        H: Adverse Events and Temporary Harm Events . . . . . . . . . . . . . . . . . 51

                        I: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62


                      A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74



    OEI-06-09-00090         ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   v


       I N T R O D U C T I O N


                        OBJECTIVES
                        To estimate the national incidence of adverse events for hospitalized
                        Medicare beneficiaries, assess the preventability of such events, and
                        estimate associated costs to Medicare.


                        BACKGROUND
                        Statutory Mandate and Office of Inspector General Response
                        The Tax Relief and Health Care Act of 2006 (the Act) requires that the
                        Office of Inspector General (OIG) report to Congress regarding the
                        incidence of “never events” among Medicare beneficiaries; the extent to
                        which the Medicare program paid, denied payment, or recouped
                        payment for services furnished in connection with such events; and the
                        processes that the Centers for Medicare & Medicaid Services (CMS)
                        uses to identify such events and deny or recoup payment. 1 OIG is also
                        to make recommendations for such legislation and administrative action
                        as OIG determines is appropriate. (For relevant text of the Act, see
                        Appendix A.) To meet the requirements of the Act, OIG released a
                        series of reports beginning in 2008 and will publish additional reports
                        based on ongoing work. 2
                        Adverse Events in Hospitals
                        Following a review of Medicare policies and expenditures, as well as
                        consultation with CMS and the Agency for Healthcare Research and
                        Quality (AHRQ), we chose to focus our work on inpatient acute care
                        hospitals. For fiscal year (FY) 2009, Medicare costs for inpatient care
                        were $137 billion, constituting 28 percent of total expenditures. 3 As a
                        condition of participation in the Medicare and Medicaid programs,
                        Federal regulations require that hospitals develop and maintain Quality
                        Assessment and Performance Improvement (QAPI) Programs. 4 As a


                        1 Tax Relief and Health Care Act of 2006, P.L. 109-432 § 203.
                        2 The studies in the series published to date are: Adverse Eventsin Hospitals: Overview of
                      Key Issues, OEI-06-07-00470; Adverse Events in Hospitals: State Reporting Systems,
                      OEI-06-07-00471; and Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                      Beneficiaries in Two Counties, OEI-06-08-00220, all published in December 2008; Adverse
                      Events in Hospitals: Public Disclosure of Information About Events, OEI-06-09-00360,
                      January 2010; and Adverse Events in Hospitals: Methods for Identifying Events,
                      OEI-06-08-00221, March 2010.
                        3 CMS,  2009 CMS Statistics Book, Table III.6, Office of Research, Development, and
                      Information, CMS Pub. No. 03497, December 2009, p. 30.
                        4 42 CFR § 481.21.




    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        1

I N T R O D           U C T       I O N


                        part of their QAPI programs, hospitals must “track medical errors and
                        adverse patient events, analyze their causes, and implement preventive
                        actions.” 5 Federal regulations do not require specific program
                        characteristics. The QAPI provisions also require that hospitals
                        establish programs to demonstrate improvement in quality indicators
                        for which there is evidence that practices will improve outcomes. 6 As an
                        additional quality effort, Quality Improvement Organizations (QIO)
                        contract with CMS to assist hospitals in improving the quality of care
                        for Medicare beneficiaries, including addressing patient safety issues. 7
                        A variety of terms, lists, and definitions are used to identify health care
                        events that result in patient harm. For purposes of the Act, the term
                        “never event” means an event that is listed and endorsed as a serious
                        reportable event by the National Quality Forum (NQF) 8 as of
                        November 16, 2006. 9 The NQF uses the term “serious reportable
                        events” to describe a specific list of events associated primarily with
                        patient death or serious disability that are both egregious and
                        preventable, concluding that they “should never occur in a health care
                        setting.” These became known as “never events.” (For a list of NQF
                        Serious Reportable Events, see Appendix B.) The NQF list is often used
                        by patient advocates and health care payers in establishing patient
                        safety policies. 10 The health care community now uses the term
                        “adverse event” more commonly than “never event” to refer to harm
                        experienced by a patient as a result of medical care. After consulting
                        with congressional committee staff in 2007, we expanded our approach
                        to be consistent with patient safety research and industry trends.

                        As used in this study, an adverse event is defined as harm to a patient
                        as a result of medical care or in a health care setting. Although an
                        adverse event indicates that the care resulted in an undesirable clinical


                        5 42 CFR § 482.21(c)(2).
                        6 42 CFR § 482.21(a)(1).
                        7 CMS, QIO Overview, last modified January 2010. Accessed at
                      http://www.cms.hhs.gov/QualityImprovementOrgs/ on September 29, 2010.
                        8 NQF is a public-private membership organization created to develop and implement a
                      national strategy for health care quality measurement and reporting.
                        9 The Act, § 203(d). The NQF list is available online at http://www.qualityforum.org.
                        10 As an example, The Leapfrog Group, a national nonprofit focused on patient safety
                      issues, encourages hospitals to adopt policies to address Serious Reportable Events. Leapfrog
                      Group Position Statement on Never Events, updated November 11, 2009. Accessed at
                      http://www.leapfroggroup.org/for_hospitals/leapfrog_hospital_survey_copy/never_events on
                      September 29, 2010.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        2

I N T R O D           U C T       I O N


                       outcome and may involve medical errors, adverse events do not always
                       involve errors, negligence, or poor quality of care and are not always
                       preventable. 11 Research and policy to improve patient safety and
                       reduce the incidence of adverse events often focus on identifying and
                       addressing systemic problems that may lead to patient harm and avoid
                       labeling the event as an outcome of negligence or poor quality.
                       Additionally, researchers, policymakers, and health care entities
                       sometimes adopt different standards for distinguishing between degrees
                       of patient harm in determining whether they classify an occurrence as
                       an adverse event. Thus, entities tracking events may find different
                       results depending on the list used to identify and classify events.
                       The National Coordinating Council for Medication Errors Reporting and
                       Prevention (NCC MERP) Index for Categorizing Errors can be used to
                       classify adverse events by level of patient harm. The NCC MERP Index
                       was initially developed to categorize the effect of medication errors and
                       considers whether the occurrences had an effect on the patients and, if
                       so, how harmful they were. The index includes categories for
                       circumstances or occurrences that presented a risk but did not cause
                       harm, often referred to as “near misses,” and those that caused harm.
                       Table 1 shows the NCC MERP Index for Categorizing Errors.

                       Table 1: The NCC MERP Index for Categorizing Errors
                        Level                                                                                                        Description          Event

                        A          Circumstances or events occurred that had the capacity to cause error.
                                                                                                                                                          Harm
                        B                                                      Error occurred but did not reach the patient.
                                                                                                                                                       does not
                        C           Error occurred that reached the patient but did not cause patient harm.                                              reach
                                                                                                                                                        patient
                                          Error occurred that reached the patient and required monitoring to
                        D
                                                           preclude harm or confirm that it caused no harm.

                                       Error occurred that may have contributed to or resulted in temporary
                        E
                                                                           harm and required intervention.

                                        Error occurred that may have contributed to or resulted in harm and
                        F                                                                                                                                Harm
                                                              required an initial or prolonged hospital stay.
                                                                                                                                                       reaches
                        G          Error occurred that contributed to or resulted in permanent patient harm.
                                                                                                                                                        patient
                        H               Error occurred that required intervention to sustain the patient’s life.

                        I          Error occurred that may have contributed to or resulted in patient death.
                       Source: NCC MERP Index for Categorizing Errors, Press Release, Medication Errors Council Revises and
                       Expands Index for Categorizing Errors: Definitions of Medication Errors Broadened, June 12, 2001.




                       11 R.M. Wachter,      Understanding Patient Safety, McGraw-Hill, 2008.


    OEI-06-09-00090    ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                          3

I N T R O D           U C T        I O N


                        Researchers have used the NCC MERP index for measuring and
                        distinguishing other types of adverse events, rather than only
                        medication errors. For example, the Institute for Healthcare
                        Improvement (IHI), a nonprofit organization that advises hospitals
                        regarding health care quality, uses a modified version of the
                        NCC MERP index to measure the degree of patient harm, regardless of
                        whether the harm was the result of an error. 12
                        Present on Admission Indicators and Medicare’s Hospital-Acquired
                        Conditions Policy
                        Medicare reimbursement to acute care hospitals through the Inpatient
                        Prospective Payment System (IPPS) is generally determined by
                        grouping codes representing patient conditions into Diagnosis-Related
                        Groups (DRG) based on the average cost of care for patients with
                        similar conditions. 13 Hospitals may submit Medicare claims under
                        IPPS using nine diagnosis codes and six procedure codes for each
                        hospital stay. Historically, if a Medicare beneficiary experienced an
                        adverse event that resulted in assignment of a more costly DRG, CMS
                        paid the higher DRG. 14
                        Beginning October 1, 2007, hospitals are required to assign a Present on
                        Admission (POA) Indicator to each principal and secondary diagnosis
                        for acute IPPS claims for all discharges. 15 This was an initial step in
                        complying with the Deficit Reduction Act of 2005 (DRA), which required
                        CMS to select at least two hospital-acquired conditions (HAC) for which
                        hospitals would not be paid higher Medicare reimbursement. 16




                        12 F.A. Griffin and R.K. Resar, IHI Global Trigger Tool for Measuring Adverse Events,

                      Institute for Healthcare Improvement Innovation Series 2007, pp. 4–5.
                         13 CMS, Acute Inpatient PPS Overview, last modified Feb. 22, 2010. The ICD-9-CM system
                      assigns diagnoses and procedure codes associated with hospital stays and is maintained
                      jointly by CMS and the National Center for Health Statistics. Accessed at
                      http://www.cms.gov/AcuteInpatientPPS/01_overview.asp on September 29, 2010.
                        14 CMS, Press Release,Eliminating Serious, Preventable, and Costly Medical Errors –
                      Never Events, May 18, 2006.
                        15 CMS, CMS Manual System, Change Request 5679 (July 20, 2007). To effectuate the use
                      of POA indicators, the FY 2008 IPPS rule implemented a more specific list of DRGs called
                      Medicare Severity Diagnosis-Related Groups (MS-DRG). MS-DRGs split some of the prior
                      DRGs into two or three classes based on the presence of a complication or comorbidity.
                      FY 2008 IPPS Final Rule, 72 Fed. Reg. 47130, 47138 (Aug. 22, 2007).
                        16 DRA, P.L. 109-171 § 5001(c)(1), Social Security Act (SSA), § 1886(d)(4)(D),
                      42 U.S.C. § 1395ww(d)(4)(D).



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        4

I N T R O D           U C T          I O N


                        In response, CMS issued regulations outlining a policy to deny hospitals
                        higher payment for hospital admissions complicated by any of
                        10 categories of HACs. 17 The DRA required that the conditions meet
                        the following criteria:

                            conditions that are high cost, high volume, or both;

                            conditions that, when present as a secondary diagnosis, result in
                             assignment of a case to a DRG that has a higher payment;

                            conditions that could be reasonably prevented by using readily
                             available evidence-based guidelines; and

                            conditions that are identifiable based on one or more unique
                             diagnosis codes. 18
                        Effective October 1, 2008, CMS began denying hospitals higher payment
                        for care associated with these conditions. 19 Examples of HACs include
                        catheter-associated urinary tract infections and patient injury because
                        of a fall. For the full list of Medicare HACs, see Appendix C.
                        Determining the Incidence of Adverse Events
                        Research indicates that identifying adverse events retrospectively is a
                        complex and difficult task, requiring extensive clinical knowledge,
                        adequate documentation, and subjectivity on the part of the
                        researcher. 20 Medical records review is often considered the most
                        definitive method for detecting adverse events because it can provide
                        detail about both the adverse event and the circumstances, such as the
                        patient’s condition prior to and following the event. 21 However, medical
                        records reviews can be costly, requiring hospital staff to make records
                        available and substantial effort by physicians or other clinicians to
                        review them. To limit physician medical records reviews required to
                        identify adverse events, cases can be screened to identify potential




                        17 FY 2008 IPPS Final Rule, 72 Fed. Reg. 47130, 47202 (Aug. 22, 2007); and FY 2009 IPPS
                      Final Rule, 73 Fed. Reg. 48434, 48471–48491 (Aug. 19, 2008).
                        18 SSA, § 1886(d)(4)(D)(iv).
                        19 FY 2009 IPPS Final Rule, 73 Fed. Reg. 48434, 48471–48472 (Aug. 19, 2008); CMS, CMS
                      Manual System, Change Request 6189 (Oct. 3, 2008).
                        20 E.J. Thomas and L.A. Peterson, Measuring Errors and Adverse Events in Health Care,
                      Journal of General Internal Medicine, 18(1), 2003, pp. 61–67.
                        21 E.J. Thomas, D.M. Studdert, and T.A. Brennan, The Reliability of Medical Record
                      Review for Estimating Adverse Event Rates, Annals of Internal Medicine, 136(11), June 2002,
                      pp. 812–816.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        5

I N T R O D           U C T       I O N


                        adverse events using other methods, such as nurse reviews of medical
                        records and analysis of POA indicators in hospital claims data.

                        Nurse review of medical records. Medical records screening can identify
                        potential adverse events based on information in the medical records.
                        The IHI Global Trigger Tool (GTT) uses a review of medical records to
                        identify “triggers” that could signal patient harm, thereby identifying
                        potential adverse events. A trigger could be a description of the harm
                        itself or a reference that indicates harm occurred (such as a return to
                        surgery). The review is designed to be completed by nurse reviewers,
                        with the results then confirmed or refuted by a physician. Barriers to
                        medical records screening include incomplete records and high labor
                        costs for review.

                        Analysis of POA indicators. Automated computer programs can review
                        Medicare billing data, specifically the POA indicator codes assigned to
                        each diagnosis, to identify conditions that developed during hospital
                        stays and possibly constitute adverse events. Although these programs
                        enable examination of large numbers of hospital stays, barriers exist to
                        POA analysis, including inaccurate or incomplete data. CMS’s POA
                        coding requirement began in October 2007, and the accuracy and
                        completeness of hospital coding of POA indicators have not yet been
                        validated. Additionally, conditions can be acquired in hospitals that are
                        not related to medical care and therefore not adverse events.
                        OIG case study. Prior to this study, we conducted a case study of the
                        incidence of adverse events occurring during October 2008 for a random
                        sample of 278 Medicare beneficiaries’ hospital stays in 2 counties. 22 We
                        estimated that 15 percent of Medicare beneficiaries in the two counties
                        experienced events meeting at least one of the following criteria: events
                        on the NQF list of Serious Reportable Events; events on Medicare’s list
                        of HACs; or events involving prolonged hospital stays, permanent harm,
                        life-sustaining intervention, or death (classified as F-I level of harm on
                        the NCC MERP index). An additional 15 percent of beneficiaries
                        experienced events involving temporary harm (classified as E level of
                        harm on the NCC MERP index). The case study served in part to test
                        the usefulness of various methods for identifying adverse events. We
                        found that, combined, nurse screening of medical records and analysis



                        22 OIG, Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                      Beneficiaries, OEI-06-08-00220, December 2008.


    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        6

I N T R O D           U C T         I O N


                        of POA indicator codes in billing data identified 94 percent of
                        occurrences that physicians ultimately determined to be adverse or
                        temporary harm events. 23
                        Determining the Preventability of Adverse Events
                        To provide additional context regarding adverse events, some
                        researchers have assessed whether adverse events were preventable
                        and described the circumstances associated with events. A 2008
                        review of eight preventability studies found that the median percentage
                        of adverse events judged preventable was 43.5 percent. 24 Assessing
                        preventability can provide greater understanding of the causes of
                        adverse events, which can be used to develop actionable solutions to the
                        systemic problems that lead to events. Also, preventability is a
                        statutory criterion of Medicare’s nonpayment policy for HACs; CMS was
                        required to select only conditions that can be “reasonably prevented by
                        using readily available evidence-based guidelines.” 25
                        Reducing the Incidence of Adverse Events
                        Reducing the incidence of adverse events in hospitals is a critical
                        component of efforts to improve patient safety and quality care. The
                        Institute of Medicine (IOM) report, To Err Is Human: Building a Safer
                        Health System, focused widespread attention on the problem of adverse
                        events. IOM cited two studies that used medical records reviews to
                        identify adverse events and assess whether events were preventable.
                        IOM concluded that preventable adverse events caused “at least
                        44,000 and perhaps as many as 98,000 deaths in hospitals each year”
                        and outlined a national plan to address adverse events. 26
                        As part of its plan, IOM recommended the creation of a nationwide
                        system for the collection of standardized adverse event data by State
                        governments. As reported by OIG, 25 States and the District of
                        Columbia had adverse event reporting systems in 2008, 11 of which



                        23 OIG,   Adverse Events in Hospitals: Methods for Identifying Events, OEI-06-08-00221,
                      March 2010.
                        24 E.N. De Vries, M.A. Ramrattan, et al.,
                                                               The Incidence and Nature of In-Hospital Adverse
                      Events: A Systematic Review, British Medical Journal – Quality and Safety in Health Care,
                      17(3): 216–23, June 2008.
                        25 SSA, § 1886(d)(4)(D)(iv), 42 CFR § 412.10; FY 2008 IPPS Final Rule, 72 Fed. Reg. 47130,
                      47202 (Aug. 22, 2007).
                        26 L.T. Kohn, J.M. Corrigan, and M.S. Donaldson, eds., To Err Is Human: Building a Safer
                      Health System, A Report of the Committee on Quality of Health Care in America, p. 102,
                      IOM, National Academy Press, 2000.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        7

I N T R O D           U C T        I O N


                        used the NQF list of Serious Reportable Events or a modified version of
                        the list to define what events are reportable. 27 To date, no national
                        adverse event reporting system exists and there are no Federal
                        standards regarding State systems.

                        Following the IOM report, the Federal Government formed the Center
                        for Quality Improvement and Patient Safety (CQuIPS) within AHRQ to
                        provide national leadership in improving patient safety. In a 2009
                        report, AHRQ identified its core agency objectives for CQuIPS as
                        developing a solid evidence base, designing useful tools for providers,
                        and disseminating information for implementation. 28 As mandated by
                        Congress, AHRQ releases an annual report to the Nation about health
                        care quality that is produced by CQuIPS and includes measures of
                        patient safety. 29 The National Healthcare Quality Report includes
                        measures of the incidence of certain types of adverse events, using data
                        from sources such as the Medicare Patient Safety Monitoring System
                        (MPSMS), an AHRQ-CMS collaborative effort to identify adverse events
                        through analyses of medical records and Medicare claims data for
                        beneficiaries’ hospital stays. 30 AHRQ is also responsible for
                        implementation and oversight of the certification process for Patient
                        Safety Organizations (PSO) created by the Patient Safety Act and
                        Quality Improvement Act of 2005. 31 PSOs are in the early stages of
                        development, but are intended to receive adverse event reports from
                        hospitals and forward the information to a national AHRQ database
                        from which CQuIPS will analyze aggregated data. AHRQ developed a
                        set of event definitions and reporting tools known as the Common
                        Formats, which PSOs can choose to use and which contain data
                        elements that AHRQ determined are important for a complete and


                        27 OIG, Adverse Events in Hospitals: State Reporting Systems, OEI-06-07-00471,
                      December 2008.
                        28 AHRQ, Advancing Patient Safety: A Decade of Evidence, Design, and Implementation,
                      AHRQ Publication No. 09(10)-0084, November 2009. Accessed at
                      http://www.ahrq.gov/qual/advptsafety.htm on September 29, 2010.
                        29 Healthcare Research and Quality Act of 1999, P.L. 106-129 § 2(a); Public Health Service
                      Act (PHSA), § 913, 42 U.S.C. § 299b-2.
                        30 D.R. Hunt, N. Verzier, et al., “Fundamentals of Medicare Patient Safety Surveillance:
                      Intent, Relevance, and Transparency,” Advances in Patient Safety, 2005, p. 105. Accessed at
                      www.ahrq.gov/downloads/pub/advances/vol2/Hunt.pdf on September 29, 2010.
                        31 The Secretary of Health and Human Services (Secretary) delegated authority to AHRQ to
                      make these determinations, as well as to fulfill other requirements of the Patient Safety Act.
                      Patient Safety and Quality Improvement Act of 2005, P.L. 109-41 § 2, PHSA, § 924,
                      42 U.S.C. § 299b-24; 73 Fed. Reg. 70732 (Nov. 21, 2008).



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        8

I N T R O D           U C T        I O N


                        useful adverse event report. 32 A variety of organizations are eligible to
                        become PSOs, including hospital associations, hospital chains, and
                        patient safety consulting groups. 33 For a 2009 OIG study, staff from
                        selected PSOs reported barriers that could limit hospital participation
                        in PSOs and questioned the usefulness of submitting data for
                        aggregation. 34 Finally, the American Recovery and Reinvestment Act of
                        2009 appropriated $300 million to AHRQ to sponsor and disseminate
                        research that compares the effectiveness of clinical care options, the
                        purpose of which is to promote evidence-based medical care. 35
                        In March 2010, Congress passed health care reform legislation in the
                        form of the Patient Protection and Affordable Care Act (ACA). 36 The
                        ACA includes a number of provisions to take effect over multiple years,
                        including expanded funding and authority to the Department of Health
                        and Human Services (HHS) to address health care quality issues.
                        Among the initial efforts to implement the ACA, the Secretary is to
                        establish a national strategy for quality improvement in health care by
                        January 1, 2011. 37 The law requires that the strategy address eight
                        national priority areas, one of which is to improve patient safety. 38 It
                        also increases funding to CQuIPS for research grants to explore best
                        practices. 39 Among its payment provisions, the ACA expands the
                        Medicare HAC policy to mandate hospital payment penalties for high
                        rates of HACs, 40 create new quality measures, 41 and require State
                        Medicaid agencies to deny higher reimbursement for care associated
                        with HACs. 42



                        32 AHRQ,    Common Formats for Patient Safety Data Collection and Event Reporting, Notice
                      of Availability: Common Formats Version 1.0, September 2, 2009. Accessed at
                      http://www.pso.ahrq.gov/formats/commonfmtv1_0fr.htm on October 12, 2010.
                        33 PHSA, § 924(b), 42 U.S.C. § 299b-24(b).
                        34 OIG, Adverse Events in Hospitals: Public                         Disclosure of Information About Events,
                      OEI-06-09-00360, January 2010.
                        35 American Recovery and Reinvestment Act of 2009, P.L. 111-5, Division A, Title VIII.
                        36 ACA, P.L. 111-148, was signed into law on March 23, 2010, after we had completed data
                      collection and analysis for this study.
                        37 P.L. 111-148 § 3011, PHSA, § 399HH, 42 U.S.C. § 280j.
                        38 P.L. 111-148 § 3011, PHSA, § 399HH(a)(2)(B)(vii), 42 U.S.C. § 280j(a)(2)(B)(vii).
                        39 P.L. 111-148 § 3501, PHSA, §§ 933 and 934.
                        40 P.L. 111-148 § 3008(a), SSA, § 1886(p), 42 U.S.C. § 1395ww(p).
                        41 P.L. 111-148 § 3013 inserted new section 931 of the PHSA, 42 U.S.C. § 299b-31, and
                      added section 1890A(e) of the SSA, 42 U.S.C. § 1395aaa-1(e).
                        42 P.L. 111-148 § 2702.




    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        9

I N T R O D           U C T        I O N



                        METHODOLOGY
                        Scope
                        This report estimates the national incidence of adverse events based on
                        a representative sample of Medicare beneficiaries discharged from
                        inpatient acute care hospitals during October 2008. Our results are
                        projectable to all Medicare beneficiaries hospitalized during this period
                        nationwide. To determine the estimated rate of adverse events, we used
                        criteria developed by NQF, CMS, and NCC MERP. We included in the
                        estimated national incidence rate all patient harm that occurred during
                        the hospital stay, regardless of whether it was preventable. Also, the
                        report provides a physician assessment of the extent to which identified
                        events were preventable and analysis of billing data to estimate the cost
                        to the Medicare program for increased reimbursement resulting from all
                        events and preventable events.
                        Sample Selection
                        We selected a sample of Medicare beneficiaries from the National
                        Claims History (NCH). Of the 999,645 beneficiaries discharged from
                        acute care hospitals during October 2008, we selected a random sample
                        of 785 beneficiaries. We excluded 5 beneficiaries as ineligible because
                        the hospital was currently under OIG investigation, resulting in a
                        sample of 780 beneficiaries. In July–October 2009, we requested and
                        received medical records from hospitals regarding sample beneficiaries’
                        hospital stays. Fifty-four of the beneficiaries had more than 1 hospital
                        stay during October (50 had 2 stays and 4 had 3 stays). Combined,
                        sample beneficiaries had 838 hospital stays with discharges in
                        October 2008 and an average length of stay of 5.2 days. 43
                        Identifying Adverse Events and Determining Preventability
                        We conducted a two-stage review to identify adverse events experienced
                        by each beneficiary. The first stage used three screening methods to
                        identify cases likely to include an event. This enabled us to reduce the
                        number of cases requiring the second-stage physician review. During
                        the first stage, we identified cases that met one or more of the following
                        conditions: (1) certified medical coders identified codes in the Medicare
                        claims data that were listed as not present on admission, (2) nurse
                        reviewers found evidence of a potential adverse event in the medical


                         43 The average length of stay for hospitalized Medicare beneficiaries overall in 2007 was
                      5.6 days. CMS, 2009 CMS Statistics, Table IV.1 Medicare Short-stay Hospital Utilization,
                      2009, Tab 1.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        10

I N T R O D           U C T        I O N


                        records, or (3) the beneficiary had a hospital admission within 30 days
                        after discharge for his or her last sample hospital stay ending in
                        October 2008. 44
                        We identified 420 cases for the second stage of review, which entailed a
                        review of the full medical records by physicians to identify events. To
                        ensure consistency across physician reviewers, we facilitated weekly
                        conference calls during which all physician reviewers discussed cases
                        that either were complex or had possible implications for other cases.
                        We included events experienced by patients during hospital stays or
                        during prior, contiguous outpatient visits (wherein patients were
                        transferred directly from outpatient care to inpatient care within the
                        same facility). For example, we included in our count an adverse event
                        that occurred in a hospital emergency department immediately
                        preceding admission to inpatient care. We did not include events that
                        occurred prior to a beneficiary’s arrival on the hospital campus. When
                        an initial event caused a series of related events for the same patient,
                        we collapsed the events into a “cascade event,” which counted as a
                        single event. 45 For a glossary of selected clinical terms used to describe
                        events, see Appendix D.

                        As part of the structured protocol, physician reviewers also determined
                        the extent to which the identified events were preventable. Generally
                        speaking, physicians assessed events as preventable when they
                        determined that harm could have been avoided through improved
                        assessments or alternative actions. Physicians assessed an event as not
                        preventable when they determined that harm could not have been
                        avoided given the complexity of the patient’s condition or the care
                        required. The physician protocol used the following response scale for
                        assessing the preventability of events: clearly preventable, likely
                        preventable, clearly not preventable, likely not preventable, and unable
                        to determine. Physicians used their clinical experience and judgment to
                        make preventability determinations. They considered all evidence in



                         44 We reviewed records for admissions that occurred within 30 days of the last beneficiary
                      discharge. Therefore, the 30-day window for reviewing readmissions did not span a fixed
                      timeframe but began on the unique final discharge date for each beneficiary with the last
                      possible admission occurring on November 30, 2008 (30 days following the final possible
                      October 31, 2008, discharge).
                         45 Based on OIG interviews with IHI staff, IHI defines a cascade event as one in which an
                      initial event causes a series of related events for the same patient and advocates collapsing
                      these into a single event.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        11

I N T R O D           U C T     I O N


                       the medical records, including the actions of hospital and medical staff
                       and the patient’s condition. Assessing an event as clearly preventable
                       or clearly not preventable required a greater degree of certainty on the
                       part of the reviewer. For detailed information about the methodology
                       for identifying events and determining preventability, see Appendix E.
                       Data Analysis
                       We performed analysis and generated estimates about adverse events
                       for three categories: incidence of events, preventability of events, and
                       Medicare cost associated with events. We also calculated separate
                       estimates regarding these categories for temporary harm events. For
                       estimates and corresponding 95-percent confidence intervals for all
                       statistical analyses, see Appendix F.

                       Adverse event incidence analysis. We calculated the estimated national
                       adverse event incidence rate as the percentage of Medicare beneficiaries
                       with at least one adverse event. We defined adverse events as events
                       that met at least one of the following criteria:
                       1. the event was on the NQF list of Serious Reportable Events, as the
                          Act mandates;
                       2. the event was on Medicare’s list of HACs for which it denies higher
                          payment; or
                       3. the event resulted in one of the four most serious categories on the
                          NCC MERP index (classified on the index as F-I):
                          - prolonged hospital stay,
                          - permanent harm,
                          - life-sustaining intervention, or
                          - death.
                       We also calculated individual rates for adverse events on the NQF list,
                       the Medicare HAC list, and events classified as F-I on the NCC MERP
                       index. The overall adverse event incidence rate does not include events
                       that physician reviewers identified as temporary harm events, defined
                       as events that required intervention but did not cause lasting harm
                       (classified as E level harm on the NCC MERP index). We excluded
                       these temporary harm events from our overall rate because we
                       determined, in consultation with physician reviewers, that the effect of
                       these events was not comparable to the more serious events meeting the
                       three criteria. We calculated a separate incidence rate for beneficiaries
                       who experienced only temporary harm events. We projected incidence
                       rates to the population of Medicare beneficiaries discharged from
                       inpatient acute care hospital stays during October 2008.


    OEI-06-09-00090    ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                       12

I N T R O D           U C T       I O N


                        As an additional measure of adverse event rates, we calculated 2 ratios
                        of adverse event incidence density: events per 1,000 patient days and
                        events per 100 hospital admissions. These measures are commonly
                        used by hospitals and medical researchers. 46 For the resulting metrics
                        and an explanation of the calculation method, see Appendix G.

                        Preventability analysis. The findings related to preventability are based
                        on determinations made by the physician reviewers for each adverse
                        event and temporary harm event. We calculated percentages for each
                        preventability classification and for different types of events, the results
                        of which are projectable to the population. We also conducted statistical
                        tests to identify differences in preventability rates between adverse
                        events and temporary harm events and across various categories of
                        adverse events, such as medication-related and infection-related events.

                        Medicare cost analysis. We estimated the cost to Medicare resulting
                        from care associated with adverse events and temporary harm events.
                        This analysis included only Medicare claims that were paid under the
                        IPPS and were subject to the Medicare HAC policy (84 percent of
                        sample beneficiaries). 47 Certified medical coders reviewed the medical
                        records, the medical review protocols, and the associated Medicare
                        claims to identify diagnosis and procedure codes that would not have
                        been included in the claims if the events had not occurred. We then
                        used CMS’s MS-DRG Grouper and Medicare Code Editor Version 27
                        (Grouper) to determine the DRG for the claims and used the FY 2009
                        IPPS personal computer Pricer (Pricer) to determine the resulting
                        Medicare reimbursement amounts. 48 For each claim, we calculated the
                        DRG and reimbursement amount, including information from the



                        46 K.M. Arias, Outbreak Investigation, Prevention, and Control in Health Care Settings,
                      Second Edition, Jones and Bartlett Publishers, 2009, pp. 330–331.
                        47 The cost analysis does not include claims for beneficiaries whose Medicare coverage is
                      not paid under the IPPS. This includes Medicare managed care organizations and care
                      provided at hospitals excluded from the Medicare IPPS system, including hospitals in the
                      State of Maryland and some specialty hospitals nationwide, such as cancer treatment centers
                      and critical access hospitals. CMS, HAC Fact Sheet. Accessed at
                      http://www.cms.gov/HospitalAcqCond/Downloads/HACFactsheet.pdf on September 29, 2010.
                        48 The Grouper software classifies hospital claims into MS-DRG categories expected to
                      have similar hospital resource requirements. MS-DRGs are based on the nine diagnoses
                      associated with HACs and corresponding POA indicators, six procedure codes, and
                      demographic data contained in the NCHs. MS-DRGs typically split into two or three
                      individual classes based on the presence of a complication or comorbidity. This software was
                      developed by CMS and 3M and is sold by the National Technical Information Service.
                      Accessed at http://www.ntis.gov on September 29, 2010.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        13

I N T R O D           U C T       I O N


                        hospital Medicare claim. We then calculated the reimbursement
                        amount excluding diagnosis and procedure codes that coders
                        determined were the direct result of any adverse event or temporary
                        harm event experienced by the beneficiary. We projected the difference
                        between the two hospital reimbursement amounts to estimate the
                        additional cost to Medicare for care associated with events. When an
                        entire hospital stay was the result of an adverse event, we included the
                        total reimbursement amounts indicated by the Pricer as the cost of the
                        adverse event.

                        Limitations
                        Beyond the challenges associated with identifying adverse events and
                        assessing preventability, the methodology presents two specific
                        limitations. First, it is unlikely that the study identified all adverse and
                        temporary harm events within the sample. To the extent that the study
                        did not identify an event, it was likely because the three screening
                        methods failed to flag the case for physician review or because
                        documentation in the medical records was incomplete. Second, cost
                        estimates did not include all costs of care associated with events,
                        excluding stays not covered under the Medicare IPPS, additional
                        hospital stays caused by sample events but occurring after
                        October 2008, additional care outside the hospital (such as followup
                        physician office visits or rehabilitation services), and changes in
                        Medicare outlier payments. 49
                        Standards
                        This study was conducted in accordance with the Quality Standards for
                        Inspections approved by the Council of the Inspectors General on
                        Integrity and Efficiency.




                         49 Medicare outlier payments are supplemental payments to hospitals for patients who

                      incur extraordinarily high costs. Outlier payments are based on the degree to which costs on a
                      claim exceed specific hospital and MS-DRG fixed-loss thresholds and fluctuate depending on
                      the MS-DRG to which the claim is grouped. The Pricer analysis involved a revision of the
                      MS-DRG. This revision resulted in new outlier payments for three sample cases and
                      increased outlier payments for two sample cases. The revised outlier payments decreased the
                      cost attributed to adverse events in our estimate.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        14

F I
       FN ID NI D I N G S
                N G S



      An estimated 13.5 percent of hospitalized               Of the nearly 1 million Medicare
    Medicare beneficiaries experienced adverse                beneficiaries discharged from
                                                              hospitals in October 2008, about
              events during their hospital stays
                                                              1 in 7 experienced an adverse
                      event (13.5 percent), defined as an event that met at least 1 of the
                      following 3 criteria: the event was on the NQF list of Serious
                      Reportable Events; the event was on Medicare’s list of HACs; or the
                      event resulted in 1 of the 4 most serious categories on the NCC MERP
                      index (prolonged hospital stay, permanent harm, life-sustaining
                      intervention, or death). This incidence rate projects to approximately
                      134,000 Medicare beneficiaries experiencing at least 1 adverse event in
                      hospitals during the study period. Table 2 lists the incidence rate for
                      each of the three criteria.

                      Table 2: Estimated National Incidence of Adverse Events Among
                      Medicare Beneficiaries Discharged in October 2008
                                                                                                                    Estimated                             Estimated
                                                                                                                 Percentage of                            Number of
                         Category of Events
                                                                                                                     Medicare                              Medicare
                                                                                                                  Beneficiaries                         Beneficiaries

                         NQF Serious Reportable Events*                                                                        0.6%                            6,367

                         Medicare HACs*                                                                                        1.0%                           10,187

                         NCC MERP F-I Level Events                                                                           13.1%                          129,890

                         (Overlap)**                                                                                         (1.3%)                         (12,734)

                                Total                                                                                     13.5%***                           133,710
                      See Appendix F for confidence intervals.
                      *Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
                      **The 1.3 percent represents beneficiaries who experienced adverse events in more than one category. We
                      counted these beneficiaries only once in determining the overall incidence rate.
                      ***Column does not sum to 13.5 percent because of rounding.
                      Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.



                      We classified the identified adverse events into four clinical categories:
                      events related to medication (31 percent), events related to ongoing
                      patient care (28 percent), events related to surgery or other procedures
                      (26 percent), and events related to infection (15 percent). Table 3 lists
                      the 128 adverse events found in the sample within these categories. See
                      Appendix H for a list of the events with more complete descriptions, the
                      level of harm patients incurred, and indications of whether the events
                      were on the NQF and HAC lists.



    OEI-06-09-00090   ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                                15

F   I N D I N G           S

                        Table 3: Adverse Events Identified Among Sample Medicare
                        Beneficiaries by Clinical Category (n=128)
                                                                                                                                        Number of Events
                        Types of Adverse Events                                                                                        and Percentages of
                                                                                                                                             Total Events
                        Events Related to Medication                                                                                                      31% (40)
                          Excessive bleeding                                                                                                                   12
                          Delirium or change in mental status                                                                                                   7
                          Hypoglycemic event                                                                                                                    6
                          Acute renal insufficiency (kidney failure)                                                                                            4
                          Severe hypotension                                                                                                                    4
                          Respiratory complications                                                                                                             4
                          Severe allergic reactions                                                                                                             3
                        Events Related to Patient Care                                                                                                    28% (36)
                          Intravenous volume overload                                                                                                          10
                          Aspiration                                                                                                                            8
                          Deep vein thrombosis or pulmonary embolism                                                                                            5
                          Exacerbation of preexisting medical condition                                                                                         5
                          Stage III pressure ulcer                                                                                                              3
                          Breakdown of surgical wound                                                                                                           1
                          Congestive heart failure                                                                                                              1
                          Hypoxia (oxygen deficiency)                                                                                                           1
                          Patient fall with injury                                                                                                              1
                          Prolonged weakness and dizziness                                                                                                      1
                        Events Related to Surgery or Other Procedures                                                                                     26% (33)
                          Excessive bleeding                                                                                                                    5
                          Severe hypotension                                                                                                                    4
                          Respiratory complication                                                                                                              4
                          Iatrogenic pneumothorax                                                                                                               3
                          Postoperative ileus                                                                                                                   3
                          Postoperative urinary retention                                                                                                       3
                          Acute coronary syndrome                                                                                                               2
                          Blood clot and other occlusion                                                                                                        2
                          Cardiac complication                                                                                                                  2
                          Cardiac dysrhythmia                                                                                                                   1
                          Delay in surgery because of equipment malfunction                                                                                     1
                          Hemorrhage at surgical site                                                                                                           1
                          Seroma (fluid) following stomach resection                                                                                            1
                          Urinary catheter-associated trauma                                                                                                    1
                        Events Related to Infection                                                                                                       15% (19)
                          Urinary tract infection                                                                                                               5
                          Vascular catheter-associated infection (central or peripheral line)                                                                   4
                          Other bloodstream infection                                                                                                           4
                          Respiratory infection                                                                                                                 4
                          Surgical or procedural site infection                                                                                                 2

                      Source: OIG analysis of hospital stays for 780 Medicare beneficiaries in October 2008.


                         Of beneficiaries who experienced adverse events, 18 percent had
                         more than one adverse event. Most of the beneficiaries who experienced
                         multiple events had two events, but others had as many as three


    OEI-06-09-00090      ADVERSE EVENTS    IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                                     16

F   I N D I N G          S


                        unrelated events in the same hospitalization. For example, an elderly
                        heart patient with a history of mental illness experienced three adverse
                        events of different types, including two events that prolonged
                        hospitalization and a third that required life-sustaining intervention.
                        (This beneficiary also experienced three temporary harm events
                        associated with patient care.)
                        Less than 1 percent of Medicare beneficiaries experienced an event on
                        the NQF list of Serious Reportable Events
                        An estimated 0.6 percent of Medicare beneficiaries experienced an event
                        on the NQF list, which projects to approximately 6,400 beneficiaries
                        nationally for the study period. The low number of NQF events in the
                        sample is notable because of the prominence of the list as a measure of
                        patient harm and its use by a number of State adverse event reporting
                        systems and other entities. We identified a total of five NQF events in
                        the sample: two medication-related deaths and three Stage III pressure
                        ulcers. 50 One of the medication-related deaths illustrates the nature of
                        the NQF list as a measure of the most egregious preventable outcomes.
                        In this case, a disabled Medicare beneficiary with muscular dystrophy
                        affecting the respiratory system entered the hospital for signs of
                        respiratory failure. Medical staff at the hospital gave the beneficiary a
                        medication known to further suppress respiration, resulting in
                        progressive respiratory distress and subsequent death. Physician
                        reviewers concluded that medical staff administered the wrong
                        medication because they lacked clinical understanding of the patient’s
                        unique condition.

                        Many serious events that we identified were not on the NQF list of
                        Serious Reportable Events, including some events that resulted in
                        patient deaths and serious disability. The NQF list focuses largely on
                        serious disability or death, but is restricted to a specific set of events.
                        Of the 18 adverse events that physician reviewers found to result in
                        serious disability or patient death, only 2 were on the NQF list (i.e., the
                        medication errors resulting in death). The three Stage III pressure
                        ulcers identified in the sample were sufficiently treated prior to


                         50 Pressure ulcers are classified into four stages by the National Pressure Ulcer Advisory
                      Panel (NPUAP): Stage I is intact skin with nonblanchable redness; Stage II is a shallow ulcer
                      or blister indicating damage to the epidermis; Stage III is damage extending through all the
                      layers of the skin; and Stage IV is damage through all the layers of the skin and underlying
                      muscle, tendons, or bone. NPUAP, Pressure Ulcer Stages Revised by NPUAP. Accessed at
                      http://www.npuap.org on November 12, 2009.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        17

F   I N D I N G        S


                      discharge from the hospital and determined by physicians to have
                      caused only temporary harm.
                      Medicare HACs rarely occurred, affecting just 1 percent of beneficiaries
                      An estimated 1 percent of hospitalized Medicare beneficiaries
                      experienced Medicare HACs, which projects to approximately 10,000
                      beneficiaries nationally. We identified a total of nine Medicare HACs
                      experienced by beneficiaries in the sample: five catheter-associated
                      urinary tract infections, two vascular catheter-associated infections of
                      the central line, one patient fall resulting in injury (a compression
                      fracture), and one Stage III pressure ulcer. One beneficiary experienced
                      two of these events, resulting in a total of eight sample beneficiaries
                      with Medicare HACs. Two catheter-associated urinary tract infections
                      caused more substantial harm than is typically associated with this
                      condition: one resulted in a prolonged hospital stay and the other in
                      permanent harm. The two vascular catheter-associated infections of a
                      central line resulted in prolonged hospital stays. None of the nine
                      Medicare HACs identified by physicians on the medical records were
                      included in the associated Medicare claims. In four of the nine cases (all
                      catheter-associated urinary tract infections), diagnosis codes on the
                      claims identified the infections, but they were not the precise codes that
                      CMS uses to identify these HACs. The other five claims had no
                      diagnosis codes related to the HACs. Therefore, the HACs were not
                      identifiable through the claims data that CMS uses to implement the
                      HAC policy.
                      Thirteen percent of Medicare beneficiaries experienced adverse events
                      classified in the most serious categories on the NCC MERP harm index
                      Based on our physician medical review, 13.1 percent of Medicare
                      beneficiaries experienced adverse events classified in the four most
                      serious harm categories on the NCC MERP harm index: events
                      resulting in prolonged hospital stay, events resulting in permanent
                      harm, events requiring life-sustaining intervention, and events
                      contributing to death. This rate projects nationally to approximately
                      130,000 beneficiaries experiencing such adverse events during the study
                      period. Often, adverse events within the same clinical category, such as
                      infection, resulted in a different level of harm depending on the
                      intervention required and the condition of the patient. Table 4 lists the
                      percentage of adverse events in the sample that were classified in the
                      four most serious harm categories and the projected national numbers
                      of events by level of patient harm.


    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                      18

F   I N D I N G        S


                      Table 4: Adverse Events Classified as F-I on the NCC MERP
                      Patient Harm Index by Level of Harm
                           Level of Harm                                                                                     Percentage of Adverse Events

                           F level: Requiring prolonged hospital stay                                                                                   62%

                           G level: Permanent harm*                                                                                                     5%

                           H level: Life-sustaining intervention required                                                                               23%

                           I level: Contributing to death*                                                                                              10%

                      See Appendix F for confidence intervals.
                      *Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
                      Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.


                      An estimated 1.5 percent of hospitalized Medicare beneficiaries
                      experienced events that contributed to their deaths
                      Among the 128 adverse events that we identified in the sample,
                      12 events (9 percent of 128 events) contributed to the deaths of
                      beneficiaries. This projects to an estimated 1.5 percent of hospitalized
                      Medicare beneficiaries experiencing events that contributed to death or
                      approximately 15,000 beneficiaries during the study period. Seven of
                      the twelve deaths were related to medication, either the result of
                      improper administration of medication (wrong drug or wrong dosage) or
                      inadequate treatment of known side effects. The most common type of
                      medication-related death (five deaths) involved excessive bleeding from
                      blood-thinning medication. The two other medication-related deaths
                      involved inadequate insulin management resulting in hypoglycemic
                      coma and respiratory failure resulting from oversedation. Of the five
                      non-medication-related deaths, two were from bloodstream infections;
                      two involved aspiration (which led to pneumonia and cardiac arrest,
                      respectively); and the other involved a ventilator-associated pneumonia.
                      As stated previously, only 2 of the 12 adverse events that contributed to
                      death were on the NQF list and none were Medicare HACs.
                      Twenty-seven percent of beneficiaries who experienced adverse events had
                      at least one “cascade” event, wherein multiple, related events occurred in
                      succession
                      The sample included a total of 28 cascade events, defined as adverse
                      events that included a series of multiple, related events. We counted
                      these as single events. These cascade events were some of the most
                      serious adverse events identified in the sample, with nine cases
                      requiring life-sustaining intervention and six cases contributing to
                      death. The most common type of cascade events were events related to

    OEI-06-09-00090   ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        19

F     I N D I N G          S


                          surgery and other procedures (nine events). Two of these events began
                          with excessive bleeding following surgery or a procedure. For example,
                          one beneficiary had excessive bleeding after his kidney dialysis needle
                          was inadvertently removed, which resulted in circulatory shock, a
                          transfer to the intensive care unit, and emergency insertion of a tube
                          into the trachea (windpipe) to ease breathing. When the tube was
                          removed the following day, the patient aspirated (inhaled foreign
                          material into his lungs), which required a life-sustaining intervention.


            An additional 13.5 percent of Medicare               An additional 13.5 percent of
                                                                 Medicare beneficiaries
     beneficiaries experienced events during their
                                                                 experienced events during the
    hospital stays that resulted in temporary harm
                                                                 study period classified as E level
                          harm on the NCC MERP index, defined as events that required medical
                          intervention but did not cause lasting harm. This rate projects to
                          approximately 134,000 Medicare beneficiaries experiencing temporary
                          harm events during the study period. Of these beneficiaries, 22 percent
                          had more than one unrelated event (the highest occurrence was five
                          unrelated events in a single hospital stay). Additionally, 28 percent of
                          beneficiaries who experienced adverse events (and are included in our
                          primary rate) also had temporary harm events during the same stay.
                          Events classified as temporary harm represented a wide array of
                          conditions, such as prolonged vomiting and hypoglycemia (see Table 5).
                          The most common events related to medication (42 percent). Although
                          many cases of temporary harm represented fairly minor occurrences, we
                          classified others as temporary because the patients were in the hospital
                          for a lengthy period because of other, more serious, diagnoses, allowing
                          the hospital enough time to address the harm prior to discharge.
                          Physician reviewers indicated that many temporary harm events could
                          have developed into more serious adverse events, but hospitals provided
                          timely intervention. For example, Stage I or Stage II pressure ulcers
                          can escalate quickly to Stage III or Stage IV without proper care 51 and
                          episodes of hypoglycemia can lead to stroke and even death. 52



                          51 J.L. Zeller, C. Lynm, and R.M. Glass, Pressure Ulcers, Journal of the AMA, 296(8),
                        August 23/30, 2006, p. 1020. Accessed at http://jama.ama-assn.org on December 1, 2009.
                          52 P. Mandava and T. Kent, Metabolic Disease & Stroke: Hyperglycemia/Hypoglycemia,
                        Journal of Diabetes Science and Technology, 17, April 4, 2006, p. 8. Accessed at
                        http://emedicine.medscape.com on December 1, 2009.



      OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                          20

F   I N D I N G             S


                           Table H-2 in Appendix H contains a list of the 174 temporary harm
                           events identified in the sample with more complete descriptions.

                      Table 5: Temporary Harm Events Identified Among Sample
                      Medicare Beneficiaries by Clinical Category (n=174)
                                                                                                                                     Number of Events and
                         Types of Temporary Harm Events                                                                                Percentage of Total
                                                                                                                                                   Events
                         Events Related to Medication                                                                                                        42% (73)
                          Delirium or change in mental status                                                                                                     22
                          Hypoglycemic event                                                                                                                      11
                          Thrush and other opportunistic infection                                                                                                 7
                          Allergic reaction or side effect related to skin                                                                                         6
                          Gastrointestinal complication                                                                                                            5
                          Hypotension                                                                                                                              5
                          Dysrhythmia                                                                                                                              3
                          Excessive bleeding                                                                                                                       3
                          Severe headache or dizziness                                                                                                             3
                          Acute renal failure or insufficiency                                                                                                     2
                          Allergic reaction to blood or related products                                                                                           2
                          Respiratory complication                                                                                                                 2
                          Other events related to medication                                                                                                       2
                         Events Related to Patient Care                                                                                                      36% (63)
                          Stage I, Stage II, or unstaged pressure ulcer                                                                                           20
                          Intravenous volume overload                                                                                                             15
                          Skin tear, laceration, abrasion, or other breakdown                                                                                      9
                          Intravenous infiltrate with symptoms                                                                                                     6
                          Patient fall with injury                                                                                                                 5
                          Aspiration                                                                                                                               3
                          Failure to treat constipation or obstipation                                                                                             3
                          Tachycardia or dysrhythmia                                                                                                               2
                         Events Related to Surgery or Other Procedures                                                                                       18% (32)
                          Urinary retention                                                                                                                        8
                          Excessive bleeding                                                                                                                       6
                          Cardiac complication                                                                                                                     4
                          Surgical tear or laceration                                                                                                              3
                          Urinary catheter-related trauma                                                                                                          3
                          Prolonged nausea and vomiting                                                                                                            2
                          Postoperative or postprocedural hypotension                                                                                              2
                          Respiratory complication                                                                                                                 2
                          Other events related to surgery or other procedures                                                                                      2
                         Events Related to Infection                                                                                                           4% (6)
                          Surgical site infection                                                                                                                  2
                          Bacterial infection                                                                                                                      1
                          Respiratory infection                                                                                                                    1
                          Urinary tract infection                                                                                                                  1
                          Vascular catheter-associated infection                                                                                                   1

                      Source: OIG analysis of hospital stays for 780 Medicare beneficiaries in October 2008.


    OEI-06-09-00090        ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                                        21

F     I N D I N G         S



             Physician reviewers determined that                 Physician reviewers assessed the
                                                                 extent to which events were
      44 percent of adverse events and temporary
                                                                 preventable based on information
    harm events were clearly or likely preventable
                                                                 in the medical records, their
                         clinical experience with similar circumstances, research literature about
                         the preventability of specific events, and group discussion to reach
                         consensus. Combining adverse events and temporary harm events,
                         physicians determined that 44 percent were preventable and 51 percent
                         were not preventable. 53 (There was no statistically significant
                         difference between the preventability rates of adverse events and
                         temporary harm events.) 54 For the remaining 5 percent of events,
                         physicians were unable to make determinations because of incomplete
                         documentation in the medical records or extreme complexities in the
                         patients’ conditions or in the hospital care provided. Table 6 provides
                         the percentage of events by the physician preventability assessment.

                        Table 6: Events by Physician Preventability Assessment

                           Preventability Assessment                                                                                     Percentage of Events


                           Preventable—Harm could have been avoided through
                           improved assessment or alternative actions                                                                                     44%
                              Clearly preventable                                                                                                          9%
                              Likely preventable                                                                                                          35%

                           Not preventable—Harm could not have been avoided given
                           the complexity of the patient’s condition or care required                                                                     51%
                              Clearly not preventable                                                                                                     18%
                              Likely not preventable                                                                                                      33%

                           Unable To Determine Preventability                                                                                             5%
                         Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.


                         Physician reviewers assessed the preventability of events similarly for
                         three of the four clinical categories (medication, patient care, and
                         infections). However, events related to surgery and other procedures
                         were significantly less likely to be determined preventable than events in
                         the other three clinical categories; only 17 percent of surgical events were


                         53 The preventability rate of 44 percent is similar to the rate of 43.5 percent found by a
                       2008 review of 8 adverse event preventability studies previously referenced on p. 7.
                         54 The Cochran-Mantel-Haenszel chi square test was not significant at the 95-percent
                       confidence level (p=0.0568). See Appendix F for detailed preventability statistics for adverse
                       events and temporary harm events.



     OEI-06-09-00090     ADVERSE EVENTS    IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                           22

F   I N D I N G          S


                        preventable in contrast to 50 percent or more in each of the other three
                        groups. 55 Physician reviewers indicated that the reasons surgical events
                        were more likely to be assessed as not preventable were the high level of
                        complexity in both the care involved and the patients’ conditions. Table 7
                        provides the percentage of preventable events by clinical category.

                        Table 7: Preventable Events Within Clinical Categories
                                                                                                                                         Percentage of Events
                           Clinical Category
                                                                                                                                      Assessed as Preventable

                           Infection                                                                                                                     60%
                           Medication                                                                                                                    50%
                           Patient care                                                                                                                  51%
                           Surgery and other procedures                                                                                                  17%
                        Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.


                        Within the clinical categories, physician reviewers sometimes gave the
                        same preventability assessment for events with similar characteristics.
                        For example, they assessed 10 of 12 events related to allergic reactions
                        as not preventable. But for other types of events, preventability
                        determinations for similar events differed based on the patients’
                        conditions and risk factors. For example, in two cases of excessive
                        stomach bleeding caused by blood thinners, physicians assessed one
                        event affecting a relatively healthy patient as preventable and the other
                        event affecting a patient with stomach ulcers as not preventable
                        because of the patient’s susceptibility. In another case, physician
                        reviewers determined that some pressure ulcers were not preventable
                        because of the poor conditions of the patients and because
                        documentation in the medical records showed that the hospital staff
                        employed appropriate preventive care. However, physicians assessed
                        another pressure ulcer case as preventable because the medical staff
                        declined to order a specialty mattress for an at-risk bedridden patient
                        until after the pressure ulcer had developed, even though the medical
                        record indicated that the specialty bed was available.




                        55 The Cochran-Mantel-Haenszel chi square test was significant at the 95-percent
                      confidence level for the overall relationship between preventability and clinical category
                      (p<0.0001) as well as for each set of pair-wise comparisons between the surgical category and
                      each of the other three clinical categories (p<0.01 for each pair). Preventability rates were
                      62 percent for infections, 50 percent for medication, and 50 percent for patient care.



    OEI-06-09-00090     ADVERSE EVENTS    IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                         23

F   I N D I N G          S


                        Counting only preventable events, the estimated national incidence rate of
                        adverse events among Medicare beneficiaries would be 7.4 percent
                        The estimated adverse event incidence rate of 13.5 percent is based on
                        all adverse events’ meeting one of the three criteria, regardless of
                        whether the events were preventable. Including only the adverse
                        events determined by physician reviewers to be clearly or likely
                        preventable, the estimated incidence rate of adverse events among
                        Medicare beneficiaries would be 7.4 percent. The 13.5 percent rate of
                        additional beneficiaries experiencing temporary harm events would be
                        6.3 percent if only preventable events were included.
                        Eleven of the thirteen NQF Serious Reportable Events and Medicare HACs
                        in the sample were preventable, a key criterion of both lists
                        Although we found few in the sample, all but two adverse events on the
                        NQF and HAC lists were assessed as clearly or likely preventable. 56
                        After the adverse events on each list were separated, four of the five
                        events on the NQF list were preventable and eight of the nine Medicare
                        HACs were preventable (one event was on both lists). A key criterion of
                        both lists is that the events be largely preventable. The two events on
                        the lists that physicians assessed as not preventable were (1) an NQF
                        event consisting of a pressure ulcer that progressed from Stage I to
                        Stage III in a chronically ill patient with multiple complications and
                        susceptibility to skin breakdown and (2) a Medicare HAC consisting of a
                        compression fracture incurred during a fall by a morbidly obese patient.
                        Preventable events were most commonly linked to medical errors,
                        substandard treatment, and inadequate patient monitoring or assessment
                        Physician reviewers selected one or more rationales to support each
                        preventability determination from a list developed by the physician
                        panel. To develop these rationales, physicians gleaned information from
                        medical records, such as clinical staff actions, hospital environmental
                        factors, and patient condition unrelated to the event. Among events
                        assessed as preventable, 58 percent were linked to errors by clinical
                        staff in medical judgment, skill, or patient management. Such errors
                        often involved prescribing or administering the wrong medication.
                        Nearly half of preventable events (46 percent) involved care provided in
                        a substandard way, most frequently because of delay in diagnosis or



                         56 The number of NQF and HAC events was too small to test the preventability measure for
                      statistical significance with an acceptable degree of precision or to project the measure to the
                      national sampling frame.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        24

F   I N D I N G        S


                      treatment. Table 8 provides physician preventability rationales for
                      events within each assessment category.

                      Table 8: Events by Physician Preventability Rationales
                                                                                                                                                        Percentage
                           Preventability Rationale
                                                                                                                                                         of Events*
                           Preventable Events (n=133)
                            Error was related to medical judgment, skill, or patient management                                                                  58%
                            Appropriate treatment was provided in a substandard way                                                                              46%
                            The patient’s progress was not adequately monitored                                                                                  38%
                            The patient’s health status was not adequately assessed                                                                              23%
                            Necessary treatment was not provided                                                                                                 17%
                            Event rarely happens when proper precautions and procedures are followed**                                                           14%
                            Communication between caregivers was poor**                                                                                          8%
                            Facility’s patient safety systems and policies were inadequate or flawed**                                                           3%
                            Breakdown in hospital environment occurred (equipment failure, etc.)**                                                               2%
                           Nonpreventable Events (n=155)
                            Event occurred despite proper assessment and procedures followed                                                                     62%
                            Patient was highly susceptible to event because of health status                                                                     50%
                            Care provider could not have anticipated event given information available                                                           35%
                            Patient’s diagnosis was unusual or complex, making care difficult                                                                    29%
                            Harm was anticipated but risk considered acceptable given alternatives**                                                             14%
                      See Appendix F for confidence intervals.
                      *Percentages do not add to 100 because physician reviewers often selected more than 1 rationale.
                      **Given the small percentages, confidence intervals for projected numbers exceed 50-percent relative precision.
                      Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.


                      Other common factors associated with preventable events were
                      inadequate monitoring of patients (38 percent) and inadequate
                      assessment of patients (23 percent). These factors often led to delays in
                      treatment and worsening of patient conditions. In several of these
                      cases, patients displayed symptoms of infection but were not given
                      antibiotics until they reached the point of sepsis. In one case, the
                      patient exhibited signs of shock upon arrival at the hospital, but clinical
                      staff did not monitor the patient’s blood pressure for the first 8 hours
                      and did not provide related treatment for another 16 hours. This delay
                      caused the patient to experience severe hypotension, requiring
                      life-sustaining intervention.




    OEI-06-09-00090   ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                            25

F   I N D I N G        S


                      Physician reviewers assessed events as clearly or likely not preventable
                      when the events occurred despite proper procedures or when the
                      patients were highly susceptible to the events
                      For 62 percent of the nonpreventable events in our sample, physician
                      reviewers found that care was rendered according to accepted standards
                      of practice. In these cases, physicians determined that the care
                      provided was sufficient and appropriate and that there was no evidence
                      of errors or other problems. This rationale was often given in
                      combination with the second most common factor—that the patients’
                      other conditions made them highly susceptible to the event (50 percent
                      of nonpreventable events). For example, one beneficiary, admitted to
                      the hospital with a bowel obstruction, experienced a surgical cut of the
                      intestine that would have been difficult to avoid because of significant
                      damage to the bowel from prior surgery.

                      Other common rationales for assessing events as not preventable also
                      focused on the difficulty of providing care. For 35 percent of
                      nonpreventable events, physicians determined that the medical and
                      hospital staff could not have anticipated the events given information
                      available about the patients at the time of care delivery. For 29 percent
                      of nonpreventable events, physicians determined that the patients’
                      diagnoses were unusual or complex, making care particularly difficult.
                      Finally, in 14 percent of nonpreventable cases, the adverse events were
                      anticipated by caregivers, but the harm associated with the adverse
                      events was considered less harmful than not providing care. For
                      example, in four sample cases, patients experienced harm as a result of
                      an overload of intravenous fluid, yet the medical review found that the
                      patients were in such dire need of fluids (e.g., at risk for hypoglycemic
                      shock) that caregivers had little choice but to execute vigorous
                      intravenous fluid replacement despite the risk of overload.




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                      26

F    I N D I N G          S



    Hospital care associated with adverse events                Sixteen percent of sample
    and temporary harm events cost Medicare an                  beneficiaries under the Medicare
                                                                IPPS who experienced events
          estimated $324 million in October 2008
                                                                incurred additional Medicare
                         hospital costs as a result. Most of the additional costs (87 percent)
                         resulted from care associated with adverse events, with temporary
                         harm events generating the remaining costs. 57 These additional costs
                         project to an estimated $324 million, which equates to 3.5 percent of the
                         $9.2 billion that Medicare spent for inpatient care during
                         October 2008. 58 To give these figures an annual context, 3.5 percent of
                         the $137 billion Medicare inpatient expenditure in FY 2009 equates to
                         $4.4 billion spent on care associated with adverse events. 59
                         Costs associated with preventable events accounted for an estimated
                         $119 million of the $324 million additional cost, equating to 1.3 percent
                         of the $9.2 billion Medicare inpatient expenditures for the month or
                         about $1.8 billion annually.
                         Despite this outlay, most events did not affect Medicare costs; none of
                         the Medicare HACs resulted in a higher reimbursement
                         Of beneficiaries who experienced adverse events or temporary harm
                         events in hospitals covered under the Medicare IPPS, 84 percent did not
                         incur additional costs for care associated with the events. This occurred
                         primarily because many Medicare claims for beneficiaries who
                         experienced events did not include diagnosis or procedure codes relating
                         to the events. When Medicare claims included codes associated with the
                         events, the codes often had no effect on costs because the claims
                         included other costly diagnoses or procedure codes that elevated the
                         reimbursement to equivalent or higher amounts.



                         57 One Medicare claim included codes for two events—one adverse event and one temporary
                       harm event—and incurred an identical payment impact. This claim overlaps both groups and
                       consequently the percentages do not total 100 percent: 87 percent of costs resulted from care
                       associated with adverse events and 15 percent of costs resulted from care associated with
                       temporary harm events.
                         58 These cost estimates include only claims under the IPPS, representing 708 sample
                       Medicare claims (85 percent), but do not include costs for the remaining 130 sample
                       beneficiaries (15 percent) who had sample admissions not covered under IPPS.
                         59 The annual cost estimate of $4.4 billion is 3.5 percent of the $137 billion Medicare
                       inpatient costs for FY 2009, which assumes the same proportion of costs for adverse events for
                       the other 11 months that we found in October 2008. Annual Medicare inpatient cost figures
                       are from CMS, 2009 CMS Statistics Book, Table III.6, Office of Research, Development, and
                       Information, CMS Pub. No. 03497, December 2009, p. 30.



     OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                         27

F   I N D I N G          S


                        None of the nine Medicare HACs identified in the sample resulted in a
                        higher level of Medicare reimbursement. Although the Medicare HAC
                        policy is intended to limit costs associated with the specified events, our
                        review showed that none of the HACs in the sample would have invoked
                        a higher Medicare reimbursement. None of the associated Medicare
                        claims included the specific diagnosis codes that CMS uses to identify
                        HACs. However, even if the codes had been included on the claims, the
                        HAC policy would still not have resulted in payment reductions for
                        these cases because other diagnosis or procedure codes would have
                        elevated the reimbursement to a higher amount.
                        Two-thirds of Medicare costs associated with events were the result of
                        additional hospital stays necessitated by harm from events
                        Sixty-five percent of the additional costs to Medicare ($210 million of
                        the $324 million) were the result of entire, additional hospital stays
                        required to treat the harm resulting from the adverse events. In some
                        of these cases, the events occurred during outpatient services at the
                        hospital (such as an emergency room visit or an outpatient surgery) and
                        necessitated unplanned admissions to the inpatient facilities. In other
                        cases, the events occurred during inpatient care and the beneficiaries
                        were released from the hospital, but the aftereffects of the events
                        necessitated subsequent hospital stays within the study period. The
                        average Medicare cost of these additional hospital stays for sample
                        beneficiaries was $13,745, compared with an average additional cost of
                        $5,601 for event-related care that hospitals provided during the initial
                        hospital stay in situations that did not necessitate additional stays. 60, 61
                        Medicare cost estimates do not include additional costs required for
                        followup care after the sample hospitalization
                        Because our cost analysis included only hospital stays that ended
                        during October 2008, Medicare costs associated with care resulting from
                        adverse events and temporary harm events are greater than our
                        estimate. Beneficiaries may have had additional event-related hospital
                        stays beyond our study period and may have incurred expenses to
                        Medicare or personal expenses for followup care not reflected in
                        inpatient claims, such as physician office visits, medication, and
                        rehabilitation services during and after our study period.


                        60 Averages reflect only costs greater than zero.
                        61 The Student’s T-test comparing difference of means was significant at the 95-percent
                      confidence level (p=0.0104).



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        28

F   I N D I N G          S


                        As an example of an event resulting in subsequent Medicare costs not
                        captured by our cost analysis, one sample beneficiary was initially
                        admitted to the hospital in mid-October 2008 for a stroke. During this
                        hospital stay, he experienced an allergic reaction to medication and was
                        discharged with no additional cost associated with the event. However,
                        following discharge, the allergic reaction progressed to a
                        life-threatening condition known as Stevens-Johnson Syndrome. 62 The
                        beneficiary returned to the hospital during October for treatment,
                        incurring the cost of an entire hospital stay as a result of the event, but
                        was misdiagnosed and again discharged. The patient then incurred two
                        additional hospital stays within the next 30 days to correctly diagnose
                        and treat the condition. The total estimated inpatient cost to Medicare
                        for the latter three hospital stays was $43,050, all necessitated by the
                        event. Only $10,982 of this amount was incurred during the study
                        period and included in our cost estimate. Physician reviewers
                        determined that the medication-related event was preventable because
                        the medication was known to be highly reactive and the condition was
                        not diagnosed correctly, delaying treatment.




                        62 This condition typically begins with a skin rash and fever and, if untreated, progresses to
                      an array of conditions constituting serious harm, such as lung damage and renal failure.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        29


       R E C O M M E N D A T I O N S

                        In the decade since the IOM report, the need to improve patient safety
                        has received much attention from Federal and State governments,
                        advocacy groups, and the health care industry. Despite this attention,
                        we found that 13.5 percent of Medicare beneficiaries experienced
                        adverse events during their hospital stays in October 2008, most of
                        which resulted in prolonged hospital stays, permanent harm,
                        life-sustaining interventions, or death. An additional 13.5 percent of
                        beneficiaries experienced temporary harm as the result of events.
                        Physician reviewers determined that 44 percent of events were
                        preventable and that preventable events often involved medical errors,
                        substandard care, and inadequate monitoring or assessment of patients.
                        We found that in addition to causing the harm to patients, adverse
                        events and temporary harm events increased costs to Medicare by an
                        estimated $324 million in a single month, or 3.5 percent of Medicare
                        inpatient expenditures, suggesting potential savings from reducing the
                        incidence of events.

                        As the Federal Government’s principal agency for protecting the health
                        of Americans, 63 HHS is uniquely positioned to lead national efforts to
                        reduce adverse events in hospitals. As part of the national strategy to
                        improve health care quality mandated by the ACA, HHS is to “identify
                        areas in the delivery of health care services that have the potential for
                        rapid improvement in the quality and efficiency of patient care.” 64
                        Because many adverse events that we identified were preventable, our
                        study confirms the need and opportunity for hospitals to significantly
                        reduce the incidence of events. A number of agencies within HHS share
                        responsibility for addressing this issue, most prominently AHRQ as a
                        coordinating body for efforts to improve health care quality and CMS as
                        the Nation’s largest health care payer and an oversight entity.

                        Therefore, we recommend the following:
                        AHRQ and CMS should broaden patient safety efforts to include all
                        types of adverse events
                        Efforts to improve patient safety often focus on a small subset of
                        events that harm hospital patients. For example, NQF Serious
                        Reportable Events or Medicare HACs represented only a fraction of



                        63 HHS,  HHS Agency Mission Statement, updated February 2004. Accessed at
                      http://www.hhs.gov/about/ on March 23, 2010.
                        64 P.L. 111-148 § 3501.




    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        30

R   E C O        M M E N D A T                 I O N                S


                      the adverse events we identified in this report. Additionally,
                      patient safety provisions in the ACA often refer specifically to
                      reducing medical errors, rather than to the broader range of adverse
                      events. AHRQ and CMS should avoid focusing patient safety efforts
                      too narrowly on a small list of specific events, possibly failing to
                      address the wider array of events that lead to most instances of
                      patient harm. Rather, AHRQ and CMS should promote a definition of
                      adverse events that more fully encompasses harm resulting from
                      medical care. This broader definition would apply to a number of
                      patient safety activities, including setting priorities for research,
                      establishing guidelines for hospital reporting of events, developing
                      prevention strategies, measuring health care quality, and
                      determining payment policies.
                      AHRQ and CMS should enhance efforts to identify adverse events
                      Identifying adverse events assists policymakers and clinical researchers
                      in directing prevention resources to the areas of greatest need, setting
                      clear goals for improvement, assessing the effectiveness of specific
                      strategies, holding hospitals accountable, and gauging progress in
                      reducing incidence.

                         AHRQ should sponsor periodic, ongoing measurement of the
                          incidence of adverse events. To facilitate measurement, AHRQ
                          should establish a standard protocol for identifying events and
                          analyzing information about incidence and causes. AHRQ should
                          also consider providing hospitals with methods for measuring their
                          incidence of events, goals for incidence reduction, and benchmarks
                          or other means for comparing rates among providers.

                         AHRQ should continue to encourage hospitals to report to PSOs.
                          Hospital reporting of adverse event information to PSOs can provide
                          AHRQ with aggregated data about the nature and causes of events.
                          To maximize the usefulness of PSO-reported data for national
                          measurement and analysis, AHRQ should continue working toward
                          establishing standard adverse event definitions and reporting
                          formats and encouraging hospital reporting.

                         CMS should use POA indicators in hospital billing data to calculate
                          the frequency of adverse events occurring within hospitals. These
                          POA indicator data represent a rich source of information for
                          identifying certain adverse events in claims data. CMS should
                          establish routine methods for using POA indicators to guide patient
                          safety improvement efforts. For example, CMS could direct that

    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                      31

R   E C O        M M E N D A T                   I O N                S


                             QIOs use POA indicators to monitor hospital rates of specific
                             conditions.

                        CMS should provide further incentives for hospitals to reduce the
                        incidence of adverse events through its payment and oversight functions
                        CMS, as both a payer and an oversight entity, is positioned to influence
                        hospitals to provide high-quality care. CMS should explore avenues to
                        reduce the incidence of adverse events through both program
                        participation and payment policy.

                            CMS should strengthen the Medicare HAC policy. We found that
                             HACs represent a small proportion of preventable events and that
                             they are not always coded as such in Medicare claims. The ACA
                             makes several changes to the HAC policy, including allowing the
                             Secretary to expand the list of HACs. The law also gives the HAC
                             policy greater significance by using the list of HACs to implement
                             Medicare payment penalties, create performance measures, and
                             prohibit Medicaid payments for associated care. Given their low
                             incidence, continued use of the 10 HACs already established by CMS
                             may limit the intended effect of the statute. To strengthen the
                             policy, CMS should consider expanding the list of Medicare HACs to
                             include more conditions that may result in harm to beneficiaries.
                             CMS should also take additional steps to ensure that hospitals
                             accurately code Medicare claims to show when HACs occur, as
                             recommended in our prior report. 65

                            CMS should look for opportunities to hold hospitals accountable for
                             adoption of evidence-based practice guidelines. The conditions of
                             participation for Medicare and Medicaid require that hospitals have
                             programs to demonstrate quality improvement where evidence
                             shows practices can improve outcomes. CMS should further
                             influence hospitals to reduce adverse events through enforcement of
                             the conditions of participation. This could include more closely
                             examining patient safety issues through the survey and certification
                             process, as recommended in our prior report. 66 This could also
                             include encouraging hospitals to adopt evidence-based practices
                             shown to prevent adverse events.


                       65 OIG, Adverse Events in Hospitals: Methods for Identifying Events, OEI-06-08-00221,
                      March 2010.
                        66 Ibid.




    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                        32

R   E C O        M M E N D A T                 I O N                S



                      AGENCY COMMENTS
                      We received comments on the draft report from AHRQ and CMS.

                      AHRQ. AHRQ concurred with our recommendations, stating that
                      adverse events affect hospital patients at an “alarming rate” and that it
                      must continue working to improve patient safety.

                      In response to our recommendation to broaden patient safety efforts to
                      include all types of adverse events, AHRQ noted that the types of events
                      vary widely and that efforts should be broadened beyond prescribed lists
                      of adverse events. AHRQ stated that it has sponsored efforts to address
                      specific types of adverse events and to address causes that contribute to
                      a wide variety of adverse events. AHRQ also cited the recent
                      development of its Common Formats, a set of event definitions and
                      reporting forms not limited to a specific list of events designed for
                      hospitals to use to report events to PSOs.

                      In response to our recommendation to enhance efforts to identify
                      adverse events, AHRQ stated that it intends to foster continued
                      improvement in both identifying and reducing adverse events through
                      operational programs, research efforts, and further collaboration with
                      other agencies. Specifically, AHRQ noted that the Common Formats
                      facilitate identification of events for both internal hospital purposes and
                      reporting to PSOs. AHRQ also cited a continued commitment to its
                      Patient Safety Indicators methodology as a way to identify events in
                      administrative data and a planned expansion of the MPSMS program,
                      which identifies adverse events in medical records acquired through
                      CMS. AHRQ plans to expand the MPSMS by broadening the areas of
                      clinical investigation, seeking to address all patient populations rather
                      than only Medicare beneficiaries, and working toward sharing the
                      MPSMS methodology with other organizations.
                      CMS. CMS concurred with our recommendations and stated that it is
                      committed to the reduction of adverse events in hospitals and other
                      health care settings. CMS provided details about current activities and
                      future plans to reduce adverse events, concluding that although it has
                      taken significant steps to address these issues, more work needs to be
                      done.

                      In response to our recommendation to broaden patient safety efforts to
                      include all types of adverse events, CMS stated that it will “aggressively
                      pursue” broadening the scope and definition of patient safety efforts to
                      be more inclusive of various types of adverse events. As an example,

    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                      33

R   E C O        M M E N D A T                 I O N                S


                      CMS noted that it is expanding hospital reporting of quality data to
                      include more measures of adverse events.

                      In response to our recommendation to enhance efforts to identify
                      adverse events, CMS stated that it will continue to use POA indicators
                      in implementing its Medicare HAC policy. CMS also referenced the use
                      of POA indicators by QIOs to assist hospitals in reducing high-risk
                      pressure ulcers and indicated that it is assessing the broader use of
                      POA indicators by QIOs to assess the incidence of adverse events and
                      assist hospitals in developing quality improvement plans.

                      In response to our recommendation to provide further incentives for
                      hospitals to reduce the incidence of adverse events through payment
                      and oversight, CMS stated its commitment to more closely monitor and
                      address hospital quality of care. Specifically, CMS plans to strengthen
                      the Medicare HAC policy by considering the appropriateness of
                      expanding the conditions included, applying the policy to more health
                      care settings, and working to improve the coding and reporting of POA
                      indicators. CMS also stated that it is working toward improving
                      evaluation of the hospital conditions of participation related to patient
                      safety, developing interpretive guidelines and training for surveyors,
                      and tasking QIOs with greater responsibility to address adverse events
                      in hospitals. Further, CMS points to opportunities presented by the
                      ACA, including implementation of the Hospital Value-Based Purchasing
                      Program, which will use hospital performance as a basis for incentive
                      payments; and creation of the Center for Medicare & Medicaid
                      Innovation, which will address improvement in patient safety and
                      reduction of adverse events.

                      For the full text of AHRQ and CMS comments, see Appendix I. We
                      made minor changes to the report based on technical comments.




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S
                                                                                                                                                      34


       A P P E N D I X                       ~            A



                      Tax Relief and Health Care Act of 2006
                      P.L. No. 109-432 § 203

                      DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
                      TITLE II—MEDICARE BENEFICIARY PROTECTIONS
                      SEC 203 OIG STUDY OF NEVER EVENTS

                      (a) Study.—

                      (1) In general.—The Inspector General in the Department of Health and
                      Human Services shall conduct a study on—

                      (A) incidences of never events for Medicare beneficiaries, including
                      types of such events and payments by any party for such events;

                      (B) the extent to which the Medicare program paid, denied payment, or
                      recouped payment for services furnished in connection with such events
                      and the extent to which beneficiaries paid for such services; and

                      (C) the administrative processes of the Centers for Medicare & Medicaid
                      Services to detect such events and to deny or recoup payments for
                      services furnished in connection with such an event.

                      (2) Conduct of study.—In conducting the study under paragraph (1), the
                      Inspector General—

                      (A) shall audit a representative sample of claims and medical records of
                      Medicare beneficiaries to identify never events and any payment (or
                      recouping of payment) for services furnished in connection with such
                      events;

                      (B) may request access to such claims and records from any Medicare
                      contractor; and

                      (C) shall not release individually identifiable information or facility-
                      specific information.

                      (b) Report.—Not later than 2 years after the date of the enactment of
                      this Act, the Inspector General shall submit a report to Congress on the
                      study conducted under this section. Such report shall include
                      recommendations for such legislation and administrative action, such as
                      a noncoverage policy or denial of payments, as the Inspector General
                      determines appropriate, including—



    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   35

A   P   P E N D       I X     ~        A


                      (1) recommendations on processes to identify never events and to deny
                      or recoup payments for services furnished in connection with such
                      events; and

                      (2) a recommendation on a potential process (or processes) for public
                      disclosure of never events which—

                      (A) will ensure protection of patient privacy; and

                      (B) will permit the use of the disclosed information for a root cause
                      analysis to inform the public and the medical community about safety
                      issues involved.

                      (c) Funding.— Out of any funds in the Treasury not otherwise
                      appropriated, there are appropriated to the Inspector General of the
                      Department of Health and Human Services $3,000,000 to carry out this
                      section, to be available until January 1, 2010.

                      (d) Never Events Defined.—For purposes of this section, the term “never
                      event” means an event that is listed and endorsed as a serious
                      reportable event by the National Quality Forum as of
                      November 16, 2006.




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   36


            A P P E N D I X                                   ~            B


                     National Quality Forum Serious Reportable Events

Table B-1: The National Quality Forum (NQF) List of Serious Reportable Events
Surgical Events
 A.    Surgery performed on the wrong body part
 B.    Surgery performed on the wrong patient
 C.    Wrong surgical procedure performed on a patient
 D.    Unintended retention of foreign object in a patient after surgery or procedure
 E.    Intraoperative or immediately postoperative death
Product or Device Events
 A.    Patient death or serious disability associated with use of contaminated drugs, devices, or biologics provided by the health care facility
 B.    Patient death or serious disability associated with use or function of a device in patient care in which the device is used or functions
       other than as intended
 C.    Patient death or serious disability associated with intravascular air embolism that occurs while being cared for in a health care facility
Patient Protection Events
 A.    Infant discharged to the wrong person
 B.    Patient death or serious disability associated with patient elopement
 C.    Patient suicide, or attempted suicide resulting in serious disability, while being cared for in a health care facility
Care Management Events
 A.    Patient death or serious disability associated with a medication error
 B.    Patient death or serious disability associated with a hemolytic reaction because of administration of incompatible blood or blood
       products
 C.    Maternal death or serious disability associated with labor or delivery in a low-risk pregnancy while cared for in a health care facility
 D.    Patient death or serious disability associated with hypoglycemia, the onset of which occurs while patient is being cared for in a health
       care facility
 E.    Death or serious disability associated with failure to identify and treat hyperbilirubinemia in neonates
 F.    Stage III or Stage IV pressure ulcers acquired after admission to a health care facility
 G.    Patient death or serious disability because of spinal manipulative therapy
 H.    Artificial insemination with the wrong donor sperm or wrong egg
Environmental Events
 A.    Patient death or serious disability associated with an electric shock while being cared for in a health care facility
 B.    Any incident in which a line designated for oxygen or other gas to be delivered to a patient contains the wrong gas or is contaminated by
       toxic substances
 C.    Patient death or serious disability associated with a burn incurred from any source while being cared for in a health care facility
 D.    Patient death or serious disability associated with a fall while being cared for in a health care facility
 E.    Patient death or serious disability associated with the use of restraints or bedrails while being cared for in a health care facility
Criminal Events
 A.    Care provided by someone impersonating a health care provider
 B.    Abduction of a patient of any age
 C.    Sexual assault on a patient within or on the grounds of a health care facility
 D.    Death or significant injury resulting from a physical assault that occurs within or on the grounds of the facility
Source: NQF, Serious Reportable Events in Health Care 2006 Update: Consensus Report, NQF, Washington, DC, 2007, p. 7.




        OEI-06-09-00090             ADVERSE EVENTS      IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   37


       A P P E N D I X                           ~            C

                        Medicare Hospital-Acquired Conditions

                      Table C-1: Medicare Hospital-Acquired Conditions
                         Conditions
                          1.     Foreign object retained after surgery
                          2.     Air embolism
                          3.     Blood incompatibility
                          4.     Pressure ulcers (stages III and IV)
                          5.     Falls
                                 A. Fracture
                                 B. Dislocation
                                 C. Intracranial injury
                                 D. Crushing injury
                                 E. Burn
                                 F. Electric shock
                          6.     Manifestations of poor glycemic control
                                 A. Hypoglycemic coma
                                 B. Diabetic ketoacidosis
                                 C. Nonkeototic hyperosmolar coma
                                 D. Secondary diabetes with ketoacidosis
                                 E. Secondary diabetes with hyperosmolarity
                          7.     Catheter-associated urinary tract infection
                          8.     Vascular catheter-associated infection
                          9.     Deep vein thrombosis/pulmonary embolism associated with the following
                                 A. Total knee replacement
                                 B. Hip replacement
                         10.   Surgical site infection
                                 A. Mediastinitis after coronary artery bypass graft
                                 B. Associated with certain orthopedic procedures involving the
                                      a. Spine
                                      b. Neck
                                      c. Shoulder
                                      d. Elbow
                                 C. Associated with certain bariatric surgical procedures for obesity
                                      a. Laparoscopic gastric bypass
                                      b. Gastroenterostomy
                                      c. Laparoscopic gastric restrictive surgery
                      Source: Fiscal Year 2009 Final Inpatient Prospective Payment System Rule, 73 Fed. Reg. 48434, 48471
                      (Aug. 19, 2008).




    OEI-06-09-00090      ADVERSE EVENTS    IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   38



          A P P E N D I X                            ~            D


                        Glossary of Selected Terms 67
                        Acute coronary syndrome—Condition in which the heart does not
                        receive enough oxygen-rich blood, often marked by severe chest pain,
                        unstable angina, and/or heart attack.
                        Acute renal insufficiency—Sudden loss of the kidneys’ ability to remove
                        waste, also referred to as acute kidney failure.
                        Adverse event—Harm to a patient as a result of medical care. For
                        purposes of this study, we defined adverse events as events that met at
                        least one of the following criteria: an event on the National Quality
                        Forum list of Serious Reportable Events; an event on Medicare’s list of
                        hospital-acquired conditions (HAC) for which it denies higher payment;
                        or an event resulting in one of the four most serious categories on a
                        patient harm index (classified on the index as F-I): prolonged hospital
                        stay, permanent harm, life-sustaining intervention, or death.
                        Anticoagulant—Medication that hinders blood coagulation, typically
                        used to avoid blood clots and referred to as blood-thinning medication.
                        Aspiration—Accidental inhalation of foreign material into the lungs.

                        Congestive heart failure—Condition in which the heart is unable to
                        maintain adequate circulation of blood in the tissues of the body.
                        Deep vein thrombosis (DVT)—Formation of a thrombus (blood clot)
                        within a deep vein (as of the leg or pelvis) that is life threatening if
                        dislodgment results in blockage to the pulmonary (lung) artery.
                        Delirium—Mental disturbance characterized by confusion, disordered
                        speech, and hallucinations.
                        Dialysis—Medical procedure to remove wastes and toxins from the
                        blood, and to adjust fluid and electrolyte imbalances.
                        Dysrthymia—Condition of abnormal cardiac (heart) rhythm.

                        Hypoglycemia—Condition of abnormally low blood sugar (glucose) level.

                        Hypotension—Condition of abnormally low blood pressure.



                        67 Clinical definitions adapted from the National Institutes of Health, U.S. National
                      Library of Medicine, Medline Plus Medical Dictionary, updated February 2003. Accessed at
                      http://www.nlm.nih.gov on January 7, 2009.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   39

A   P   P E N D        I X      ~         D


                        Iatrogenic pneumothorax—Condition induced by therapeutic
                        intervention in which air or other gas occurs in the pleural cavity.
                        Ileus—Partial or complete obstruction of the bowel, marked by a painful
                        distended abdomen, vomiting, toxemia, and dehydration.
                        Intravenous (IV) infiltrate—Condition in which fluids administered by
                        entering a vein accidentally enter the surrounding tissue.
                        Intravenous (IV) volume overload—Condition in which fluid is given by
                        vein at a higher rate or larger volume than can be absorbed or excreted.
                        Obstipation—Condition of severe constipation (abnormally delayed
                        passage of dry, hardened feces) that can result in bowel obstruction.
                        Pressure ulcer—Ulceration of tissue deprived of adequate blood supply
                        by prolonged pressure, also called decubitus ulcer and bedsore.
                        Pressure ulcers are classified into four stages: Stage I is intact skin
                        with nonblanchable redness; Stage II is a shallow ulcer or blister
                        indicating damage to the epidermis; Stage III is damage extending
                        through all the layers of the skin; and Stage IV is damage through all
                        the layers of the skin and underlying muscle, tendons, or bone. 68
                        Pulmonary embolism—Obstruction of a pulmonary (lung) artery, often
                        marked by shortness of breath; chest pain with inhalation; and, in
                        severe cases, low blood pressure and death.
                        Sepsis—Systemic response to a serious, usually localized infection of
                        bacterial origin, such as systemic inflammatory response syndrome.
                        Tachycardia—Condition of rapid heart rate.

                        Temporary harm event—Harm to patient that required intervention but
                        did not cause lasting harm, classified as E level on patient harm index.
                        Thrush—Inflammation of the mouth and throat, caused by fungus.

                        Urinary tract infection (UTI)—Infection of the tract through which urine
                        passes and can include the kidney, ureters, bladder, and/or urethra.
                        Ventilator-associated pneumonia (VAP)—Disease of the lungs
                        characterized by inflammation of lung tissue and caused chiefly by
                        infection that enters the lungs through a ventilator.


                        68 National Pressure Ulcer Advisory Panel (NPUAP),
                                                                       Pressure Ulcer Stages Revised by
                      NPUAP. Accessed at http://www.npuap.org on November 12, 2009.




    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   40


             A P P E N D I X                            ~            E



                      Methodology for Identifying Events and Determining
                      Preventability
                      Screening for Potential Adverse Events
                      We conducted a two-stage review to identify adverse events. The first
                      stage included three screening methods designed to identify
                      beneficiaries who appeared likely to have experienced adverse events.
                      A beneficiary was considered likely to have experienced an adverse
                      event if any screening method found at least one potential adverse event
                      during any of the beneficiary’s hospital stays. The screening process
                      enabled us to reduce the number of cases requiring second-level review
                      of the full medical records by a physician. Additionally, physician
                      reviewers indicated that the results of the screening methods helped
                      them to more readily identify potential adverse events for consideration.

                      The screening methods included:

                         analysis by certified medical coders of Present on Admission (POA)
                          Indicators included in Medicare claims data to identify any
                          diagnoses that were acquired during the hospital stay;

                         screening of medical records by nurse reviewers using a modified
                          version of the Institute for Healthcare Improvement’s Global Trigger
                          Tool (IHI GTT) for triggers that could indicate an event, such as
                          laboratory test results indicating an infection; and

                         identification of any beneficiaries who were readmitted to the
                          hospital within 30 days after their October 2008 hospital discharges.
                      Analysis of POA Indicators. Using data from the National Claims
                      History file, certified medical coders reviewed the POA indicator data
                      included in hospital Medicare claims for each sample beneficiary. A
                      recent addition required of Medicare Part A claims, the POA indicator
                      codes require hospitals to make a clinical distinction about whether
                      diagnoses are present at the time of admission. The coders first verified
                      the accuracy of each POA indicator by reviewing the medical records
                      and then flagged each diagnosis that had a POA indicator of “N” (not
                      present on admission), “W” (clinical staff unable to determine), or “U”
                      (documentation insufficient to determine). Analysis of POA indicators
                      identified 297 beneficiaries for the second stage of the review.

                      Nurse reviews of medical records. Contracted registered nurses
                      conducted a preliminary review of medical records for each sample
                      beneficiary to identify potential adverse events. Reviewers used a

    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   41

A P P E N D            I X        ~       E


                        modified version of the IHI GTT protocol, in which reviewers identified
                        triggers in the medical records possibly indicative of adverse events and
                        then explored the records further to determine whether events occurred
                        and the resulting level of harm. Medical records screening identified
                        372 cases for inclusion in the second stage of review.

                        Readmissions. We identified 92 sample beneficiaries who were
                        readmitted to the hospital within 30 days after their discharges in
                        October 2008 and included these cases in the second stage of review.
                        We reviewed records for admissions that occurred within 30 days of the
                        beneficiaries’ last discharges; therefore, the 30-day window for
                        reviewing readmissions did not span a fixed timeframe but began on the
                        discharge date for each beneficiary.

                        Flagged hospital stays. We identified 420 beneficiaries for the second
                        stage of review, a review of the hospital medical records by physicians.
                        Of the 420 beneficiaries, we identified 391 with the 3 screening methods
                        and 29 from additional analysis. In the 29 additional cases, the
                        beneficiaries were not flagged on the 3 screening methods, but staff
                        involved in the screening process (nurses, coders, or analysts) believed
                        complexities in the cases warranted physician review.
                        Identifying Events Within Flagged Cases
                        Five contracted physicians conducted medical records review of the
                        420 cases identified by the screening methods. Physician reviewers
                        represented a variety of specializations and experience: an infectious
                        disease specialist, a cardiologist, an orthopedic surgeon, an intensivist
                        (intensive care specialist), and an internist. All five had many years of
                        clinical experience, as well as prior experience in detecting adverse
                        events in medical records. Three of the five served as physician
                        reviewers for a 2008 Office of Inspector General (OIG) case study. 69
                        Over 12 weeks, the physician reviewers examined hospital medical
                        records for each of the 420 cases. 70 Physician reviewers used a
                        structured medical review protocol that required them to describe each
                        adverse event; identify the medical record documentation that led to


                        69 OIG, Adverse Events in Hospitals: Case Study of Incidence Among Medicare
                      Beneficiaries in Two Counties, OEI-06-08-00220, December 2008.
                         70 These included medical records for all hospital stays for sample beneficiaries ending with
                      October 2008 discharges. Additionally, physicians reviewed records for any readmissions of
                      sample beneficiaries that occurred within 30 days after their final October discharges to look
                      for evidence of events that occurred during the October 2008-discharged stays.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   42

A P P E N D           I X      ~        E


                      their identification of the event; and specify the level of harm
                      experienced by the patient, with harm categorized in accordance with
                      the National Coordination Council for Medication Errors Reporting and
                      Prevention Index of Categorizing Medication Errors.

                      Throughout our study preparation, medical records review, and
                      analysis, we facilitated 22 weekly conference calls during which the
                      physician reviewers discussed the review protocol and sample cases that
                      either were complex or had possible implications for other cases. These
                      calls assisted in making determinations for difficult cases and helped
                      achieve consistency across reviewers. The physicians determined that
                      the following types of cases would require group discussion: events
                      assessed as clearly preventable; events contributing to death; and cases
                      involving respiratory failure, hypoglycemia, hypotension, urinary tract
                      infections, and complex and/or lengthy surgeries. Physicians also often
                      brought cases to group discussion if they involved care specific to a
                      specialization of another physician. We documented the discussions and
                      conclusions made during these weekly calls, continually revising a
                      written physician guidance document to further promote consistency.
                      The physicians discussed 162 of the 302 events (54 percent) and other
                      cases that the group ultimately determined did not include events.
                      Determining Preventability for Each Event
                      As part of the structured medical review protocol, reviewers also
                      assessed the likelihood that the events were preventable. In
                      collaboration with the physicians, we created an initial response scale:
                         Preventable—Patient harm could have been avoided through
                          improved assessment or alternative actions.
                         Not preventable—Patient harm could not have been avoided given the
                          complexity of the patient’s condition or the care required.
                         Unable to determine—Physicians were unable to determine
                          preventability because of incomplete documentation or case
                          complexity.

                      Through the pretest process, we expanded the scale to enable physicians
                      to more precisely gauge the extent to which an event was preventable.
                      The expanded scale divided the preventable and nonpreventable
                      responses with the descriptors clearly and likely. Assessing an event as
                      clearly preventable or clearly not preventable required a greater degree
                      of certainty on the part of the reviewer. The expanded scale enabled



    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   43

A P P E N D            I X        ~       E


                        physicians to make more precise determinations, while our primary
                        statistics continued to collapse clearly and likely.
                        To make distinctions about the circumstances in each case, physicians
                        used their clinical experience and judgment. They considered all
                        evidence in the medical records, including staff actions and the patient’s
                        condition. Physicians also used information about accepted standards of
                        care, the frequency with which certain events occurred despite
                        appropriate assessment and care, the physicians’ individual clinical
                        experiences, guidance developed during the review process, and group
                        discussion of cases. Using a list of contributing factors gleaned from
                        prior research, physicians indicated the rationale for each
                        determination and provided a narrative description for each case.

                        To improve consistency, physician reviewers used a uniform method for
                        reviewing preventability. Reviewers developed a decision algorithm
                        during practice reviews consisting of a series of questions that led the
                        reviewers to a suggested response. Questions addressed issues such as
                        whether there was a medical error, whether the event could have been
                        anticipated, and how frequently the event occurred given proper care.
                        Physicians did not automatically accept the suggested response, but
                        assessed whether it was appropriate for each case. In completing the
                        rationale section of the protocol, physicians assessed contributing
                        factors. The list of contributing factors included broad concepts from
                        the decision algorithm, such as errors, and more nuanced factors, such
                        as whether the patient was monitored or was susceptible to the event.
                        We required that physicians discuss all clearly preventable
                        determinations during group meetings (as they required greater
                        certainty), and encouraged them to bring other cases for discussion if
                        they had difficulty or felt the cases would inform other determinations.
                        Figure E-1 illustrates the preventability review process.
                        Physician Review of Findings
                        Following the medical records review, we analyzed the identified events,
                        harm levels, and preventability determinations to identify any
                        inconsistencies and discussed these with the full physician group. This
                        process resulted in some changes to the initial determinations, such as
                        collapsing a series of events into a single cascade event. 71


                         71 Based on OIG interviews with IHI staff, IHI defines a cascade event as one in which an
                      initial event causes a series of related events for the same patient and advocates collapsing
                      these into a single event.



    OEI-06-09-00090     ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   44

 A P P E N D                I X          ~        E




Figure E-1: Physician Review Process for Determining Preventability

          Part I – Decision Algorithm To Determine Suggested Response

            Q1: Was an identifiable error or
                                                                       Yes
            system failure documented in the                                                         Clearly or likely preventable
            medical record?

                                  No

            Q2: Could the care provider have
            anticipated this event with the                             No                        Clearly or likely not preventable
            information available at the time?

                                  Yes
                                                                          Yes
                                                                                                  Clearly or likely not preventable
            Q3: Were appropriate precautions
            taken to prevent this event?
                                                                           No                        Clearly or likely preventable

                                  Unable to determine
                                                                       Rarely
            Q4: How frequently does this type                                                        Clearly or likely preventable
            of adverse event occur when proper
            preparation and procedures are in
            place?                                                Occasionally
                                                                                                  Clearly or likely not preventable


           Part II – Rationale List To Evaluate Suggested Response
              Consider the rationale list for the suggested response:

              Preventable                                            Not Preventable
                  medical error                                          proper procedures followed
                  substandard treatment                                  patient highly susceptible
                  inadequate monitoring                                  could not have anticipated
                  inadequate assessment                                  patient's condition complex
                  necessary treatment not provided
                  event rarely happens                               Unable To Determine
                  poor communication                                    poor or absent documentation
                  flawed safety systems                                 medical care complex
                  breakdown in environment                              patient's condition complex


                                                                                                                  Yes
                                                                                                                                              Make selection in protocol
                                        Do you feel confident that the
                                        suggested response is appropriate?
                                                                                                                   No                         Request group discussion


            Source: OIG illustration of physician medical record review process for determining preventability.




    OEI-06-09-00090          ADVERSE EVENTS      IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S       45

          A P P E N D I X                              ~             F


  Estimates, Confidence Intervals, and Key Statistics
                                     We computed incidence rates and corresponding 95-percent confidence
                                     intervals using the computer program Sudaan. Sudaan is a statistical
                                     analysis program with appropriate standard statistical formulas for
                                     calculating correct standard errors for complex sampling designs.

Table F-1: Estimates, Confidence Intervals, and Key Statistics
                                                                                95-Percent                                                             95-Percent
                                                                                Confidence                                                            Confidence
                                                    Estimated                     Interval                           Estimated                          Interval
                                                 Percentage of                Lower        Upper                     Number of                      Lower         Upper
                                            n     Beneficiaries               Bound      Bound                     Beneficiaries                    Bound        Bound
Event Experiences for All Beneficiaries (n=780)

Experienced adverse events                105           13.46%               11.24%               16.05%                     133,710               111,644             159,421
 National Quality Forum Serious
  Reportable Events*                         5           0.64%                 0.27%                1.53%                        6,367                 2,682            15,197
 Medicare hospital-acquired
  conditions*                                8           1.03%                 0.51%                2.04%                      10,187                  5,066            20,263
 F-I level adverse events                102           13.08%               10.88%               15.63%                     129,890               108,069             155,249
 Events that overlap at least two
  categories*                                9           1.15%                 0.60%                2.20%                      11,461                  5,960            21,852
 Events that overlap all three
  categories*                                1           0.13%                 0.02%                0.91%                        1,273                    199            9,039
Experienced temporary harm
events                                    105           13.46%               11.24%               16.05%                     133,710               111,644             159,421
Experienced only preventable
adverse events                              58           7.44%                 5.79%                9.50%                      73,859                57,511             94,361
Experienced only preventable
temporary harm events                       49           6.28%                 4.78%                8.22%                      62,398                47,479             81,647
Experienced adverse events that
contributed to death*                      12           1.54%                  0.87%               2.69%                       15,281                  8,642            26,719
Beneficiaries Who Experienced at Least One Adverse Event (n=105)
Experienced multiple adverse
events                                     19          18.10%               11.84%                26.66%                       24,195                15,831             35,647
Experienced temporary harm in
addition to adverse events                 29          27.62%               19.91%                36.94%                       36,929                26,622             49,392
Experienced cascade events        28        26.67%    19.08%     35.93%          35,656     25,512       48,042
Beneficiaries Who Experienced at Least One Temporary Harm Event (excluding those who experienced adverse
events) (n=105)
Experienced multiple temporary
harm events                      23       21.90%     15.00%      30.83%          29,289     20,057       41,223
Beneficiaries Who Experienced Events and Were Covered Under the Inpatient Prospective Payment System (IPPS)
(n=171)
Incurred additional costs                  28          16.37%               11.54%                22.71%                       35,656                25,129             49,453
Did not incur additional costs           143           83.63%               77.29%                88.46%                     182,101               168,304             192,628
*Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
Source: Office of Inspector General (OIG) analysis of hospital stays and Medicare claims for 780 Medicare beneficiaries discharged in
October 2008.




         OEI-06-09-00090             ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S        46

     A    P     P E N D            I X         ~        F




Table F-2: Estimates, Confidence Intervals, and Key Statistics

                                                                                                                        95-Percent Confidence Interval

                                                            n       Percentage Estimate                                    Lower Bound                           Upper Bound
 Preventability Classification for All Adverse Events and Temporary Harm Events (n=302)
All adverse and temporary harm events                   302                                     100%                                         NA                           NA
  Preventable events                                   133                                  44.04%                                   38.06%                           50.19%
    o Clearly preventable events                            28                                 9.27%                                    6.53%                          13.01%
    o Likely preventable events                         105                                  34.77%                                   29.20%                           40.79%
  Not preventable events                               155                                  51.32%                                   45.22%                           57.39%
    o Clearly not preventable events                        55                               18.21%                                   13.92%                           23.47%
    o Likely not preventable events                     100                                  33.11%                                   27.59%                           39.14%
  Unable to determine*                                     14                                 4.64%                                    2.80%                           7.59%
Clinical Category for All Adverse Events (n=128)

 All clinical categories                                128                                  100%                                       NA                                NA
   Medication                                           40                                31.25%                                   23.35%                            40.41%
   Patient care                                            36                             28.13%                                   20.92%                            36.66%
   Surgery and other procedures                            33                             25.78%                                   18.77%                            34.31%
   Infection                                               19                             14.84%                                     9.64%                           22.18%
Clinical Category for All Temporary Harm Events (n=174)

All clinical categories                                     174                                100%                                          NA                           NA
     Medication                                            73                              41.95%                                    34.74%                           49.53%
     Patient care                                          63                              36.21%                                    29.09%                           43.98%
     Surgery and other procedures                          32                              18.39%                                    12.92%                           25.50%
     Infection                                  6                 3.45%                  1.58%                 7.36%
Harm Level for All National Coordinating Council Medication Errors Reporting and Prevention Index for Categorizing
Errors F-I Level Events (n=122)**
All NCC MERP harm levels                                122                                    100%                                           NA                          NA
   Harm F                                                  76                              62.30%                                     53.42%                          70.41%
   Harm G*                                                     6                             4.92%                                      2.22%                         10.54%
   Harm H                                                  28                              22.95%                                     16.15%                          31.54%
   Harm I*                                                 12                                9.84%                                      5.75%                         16.33%
Preventable Adverse and Temporary Harm Events Within Each Clinical Category

   Infection (n=25)                                        15                              60.00%                                     39.72%                          77.35%
   Medication (n=113)                                      57                              50.44%                                     40.98%                         59.87%
   Patient care (n=99)                                     50                              50.51%                                     40.47%                          60.50%
   Surgery and other procedures (n=65)                     11                              16.92%                                       9.51%                         28.30%
                                                                                                                                                      continued on next page
*Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
** National Coordinating Council for Medication Errors Reporting and Prevention Index for Categorizing Errors (NCC MERP).




         OEI-06-09-00090            ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S        47

     A       P    P E N D            I X         ~        F




Table F-2: Estimates, Confidence Intervals, and Key Statistics (Continued)

                                                                                                                         95-Percent Confidence Interval

                                                          n           Percentage Estimate                                    Lower Bound                           Upper Bound
 Physician Rationale for All Preventable Events (n=133)
 Error related to medical judgment, skill, or
 patient management                                           77                              57.89%                                     49.04%                          66.27%
 Appropriate treatment was provided in a
 substandard way                                              61                              45.86%                                     37.64%                          54.33%
 Patient’s progress was not adequately
 monitored                                                    50                              37.59%                                     29.76%                          46.14%
 Patient’s health status was not adequately
 assessed                                                     30                              22.56%                                     15.87%                          31.02%
 Necessary treatments were not provided                       22                              16.54%                                     11.10%                          23.92%
 Event rarely happens when proper
 precautions and procedures are followed                      18                              13.53%                                       8.46%                         20.95%
 Poor communication between caregivers*                       10                                7.52%                                      3.86%                         14.14%
 Facility’s patient safety systems and policies
 were inadequate or flawed*                                    4                                3.01%                                      1.12%                          7.81%
 Breakdown in hospital environment
 occurred (equipment failure, etc.)*                           2                                1.50%                                      0.38%                          5.80%
 Physician Rationale for All Nonpreventable Events (n=155)
 Event occurred despite proper assessment
 and procedures followed                                      96                              61.94%                                     52.82%                          70.28%
 Patient was highly susceptible to event
 because of health status                                     77                              49.68%                                     41.34%                          58.04%
 Care provider could not have anticipated
 event given information available                            54                              34.84%                                     27.54%                          42.92%
 Patient’s diagnosis was unusual or complex,
 making care difficult                                        45                              29.03%                                     21.67%                          37.70%
 Harm was anticipated but was considered
 acceptable given alternatives*                               21                              13.55%                                       8.75%                         20.40%
*Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision.
Source: OIG analysis of hospital stays for 780 Medicare beneficiaries discharged in October 2008.



Table F-3: Statistical Test Results for Preventability Subanalysis
                                                                                                                                                                     P-Value for
                                                                                                                                                                      Difference
Statistical Test                                                                                                                                                 in Proportions
  Test for relationship among preventability determinations and harm events (i.e., adverse event or
  temporary harm event)                                                                                                                                                  0.0568
  Test for relationship between preventability determinations and clinical categories (e.g., surgical event,
  medication event, patient care event, or infection)                                                                                                                   <0.0001*
  Test for difference between preventability determinations
                Surgical events versus infection events
                                                                                                                                                                         0.0013*
                Surgical events versus medication events                                                                                                               <0.0001*
                Surgical events versus patient care events                                                                                                             <0.0001*
  Test for difference of means between average additional costs incurred by entire stays and average
  additional costs attributed to events within the initial hospital stays                                                                                                0.0104*
Note: Weighted chi square and Cochran-Mantel-Haenszel chi square produced similar results.
* P-values are statistically significant at the 95 precent confidence level.
Source: OIG analysis of hospital stays and Medicare claims for 780 Medicare beneficiaries discharged in October 2008.




             OEI-06-09-00090          ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         48
 

      A    P    P E N D             I X          ~       F



 Table F-4: Projections and Confidence Intervals for Analysis of Medicare Costs
 Associated With Adverse Events and Temporary Harm Events
                                                                                                                                95-Percent Confidence Interval
                                                        Projected                       Projected
                                                       Population                   Cost Estimate                             Lower Bound                               Upper Bound
 Medicare Inpatient Costs for Projected Population (n=657)

 Estimate of Medicare inpatient costs                        836,646              $9,167,576,966                            $8,505,456,013                             $9,829,697,918
 Medicare Inpatient Costs for Projected Population Associated With Adverse and Temporary Harm Events (n=657)
 Costs associated with all events                            836,646                  $324,155,814                             $161,745,099                              $486,566,529
 Costs associated with preventable events                    836,646                  $118,720,272                               $33,915,875                             $203,524,670
Source: OIG analysis of hospital stays and Medicare claims for 780 Medicare beneficiaries discharged in October 2008.
* Medicare costs are calculated based on the 657 sample cases in the IPPS.



 Table F-5: Projections and Confidence Intervals for Average Additional Medicare Costs
 Associated With Adverse Events and Temporary Harm Events
                                                                                    Projected
                                                                                     Average                                   95-Percent Confidence Interval
 Events Resulting in Increased Medicare Costs                                 Additional Cost                                 Lower Bound                              Upper Bound
 Events resulting in increased costs for additional hospital
 stays (n=12)                                                                               $13,745                                        $7,760                           $19,730
 Events resulting in increased costs for initial hospital
 stays (n=16)                                                                                 $5,601                                       $3,889                            $7,313
 Source: OIG analysis of hospital stays and Medicare claims for 780 Medicare beneficiaries discharged in October 2008.




 Table F-6: Percentage Estimates and Confidence Intervals for Medicare Costs
 Associated With Adverse Events and Temporary Harm Events
                                                                                                                           95-Percent Confidence Interval
                                                                                 Percentage
                                                                                   Estimate                              Lower Bound                                   Upper Bound
 Percentage of Total Medicare IPPS Costs
 All adverse and temporary harm events                                                       3.54%                                       1.82%                                 5.26%
 Preventable adverse and temporary harm events                                              1.30%*                                       0.38%                                 2.21%
 Percentage of Medicare IPPS Costs Attributed to Adverse Events and Temporary Harm Events

 Associated with adverse events                                                            87.48%                                       73.70%                               100.00%

 Associated with temporary harm events                                                   14.93%*                                        0.34%                                 29.52%

 Associated with entire additional hospital stays                                          64.80%                                       43.82%                                85.77%
 *Given the small proportions, confidence intervals for projected numbers exceed 50-percent relative precision                      .
 Source: OIG analysis of hospital stays and Medicare claims for 780 Medicare beneficiaries discharged in October 2008.




          OEI-06-09-00090             ADVERSE EVENTS    IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S          49


          A P P E N D I X                               ~            G

                        Rates of Adverse Events and Temporary Harm Events by Patient
                        Days and Hospital Admissions
                        Hospitals commonly measure adverse events by incidence density,
                        which takes into account the period during which patients are observed.
                        For example, incidence density is often used in measuring hospital-
                        acquired infections because risk can increase with the length of
                        exposure to the health care environment. 72 The Institute for Healthcare
                        Improvement (IHI), a nonprofit advisory group to hospitals, cites
                        advantages to using incidence density metrics over standard incidence
                        rates that measure the number of events per patient. 73 IHI reports that
                        measuring total events by patient days or hospital admissions enables
                        hospitals to count multiple events experienced by the same beneficiary.

                        The sample of 780 Medicare beneficiaries discharged during
                        October 2008 included 838 total hospital stays (admissions) and a total
                        of 4,354 days in the hospital (patient days). We calculated patient days
                        by subtracting the admission date for each hospital stay from its
                        discharge date. 74 Table G-1 provides ratios for adverse events and
                        temporary harm events in the sample per 1,000 patient days and
                        per 100 admissions.

                        Table G-1: Rates of Adverse and Temporary Harm Events in
                        the Sample by Patient Days and Hospital Admissions
                                                                                                                         Per 1,000                       Per 100
                           Category
                                                                                                                      Patient-Days                    Admissions

                           Adverse events                                                                                               29                    15

                           Temporary harm events                                                                                        40                    21

                           Adverse events and temporary harm events combined                                                            69                    36
                        Source: Office of Inspector General analysis of hospital stays for 780 Medicare beneficiaries in
                        October 2008.




                        72 K.M. Arias,   Outbreak Investigation, Prevention, and Control in Health Care Settings,
                      Second Edition, 2009, Jones and Bartlett Publishers, pp. 330–331.
                        73 IHI, IHI Global Trigger Tool for Measuring Adverse Events, Second Edition, 2009, p. 13.
                        74 In consultation with physician reviewers, we excluded the seven patients admitted and
                      discharged on the same day (these patients did not experience temporary harm or adverse
                      events). IHI recommends selecting patient records for only hospital stays of at least 24 hours.



    OEI-06-09-00090     ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S        50

   A   P   P E N D           I X        ~       A
             A P P E N D I X                               ~            H

                              Adverse Events and Temporary Harm Events
                              Tables H-1 and H-2 contain information about adverse events and
                              temporary harm events identified in the sample, including National
                              Quality Forum (NQF) Serious Reportable Events and Medicare
                              hospital-acquired conditions (HAC). Table H-1 contains information
                              about adverse events (128 adverse events). 75 Table H-2 contains
                              information about temporary harm events (174 events). The event
                              descriptions vary somewhat depending upon the language the physician
                              reviewers used to describe the event and the level of detail included in
                              their notes.


Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
Whether the Events Were NQF Serious Reportable Events or Medicare HACs (n=128)

                                                                                                  Harm
 Adverse Event                                                                                                       Preventability                 NQF        HAC
                                                                                                  Level

 Events Related to Medication (40)
 Excessive bleeding (12)
   1. Abdominal bleeding secondary to anticoagulant given for deep
                                                                                                       I                    CNP
      vein thrombosis (enoxaparin)
   2. Brain hemorrhage secondary to anticoagulants (aspirin and
                                                                                                      F                     CNP
      clopidogrel)
   3. Cascade event in which delay in care and administration of aspirin                                                                               
                                                                                                       I                     CP
      to patient with low platelet count led to pulmonary hemorrhage
   4. Cascade event in which gastrointestinal bleeding and hematoma
      associated with aspirin and anticoagulant (clopidogrel) given                                    I                    CNP
      following coronary stent placement resulted in acute blood loss
   5. Hematuria secondary to anticoagulant (warfarin)                                                 F                      LP
   6. Retroperitoneal hemorrhage secondary to anticoagulant (warfarin)                                I                     CP
   7. Gastrointestinal bleeding secondary to anticoagulant (enoxaparin)                               I                     CNP
   8. Gastrointestinal bleeding secondary to anticoagulant (warfarin)                                 F                      LP
   9. Gastrointestinal bleeding secondary to anticoagulants (aspirin,
                                                                                                      F                     CNP
      clopidogrel, and enoxaparin)
  10. Gastrointestinal bleeding secondary to anticoagulants (aspirin,
                                                                                                      F                     CNP
      clopidogrel, and eptifibatide)
  11. Gross hematuria secondary to anticoagulants (aspirin and
                                                                                                      F                     LNP
      clopidogrel)
  12. Hematoma secondary to anticoagulant (heparin)                                                   F                      LP

                                                                                                                                                 continued on next page




                              75 The harm level is classified according to the National Coordinating Council for
                            Medication Errors Reporting and Prevention (NCC MERP) Index for Categorizing Errors
                            (E–I). Preventability determination is reflective of the physician review index: CP = clearly
                            preventable, LP = likely preventable, LNP = likely not preventable, CNP = clearly not
                            preventable, and UTD = unable to determine.




       OEI-06-09-00090        ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         51

   A   P    P E N D          I X         ~       H

Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
Whether the Events Were NQF Serious Reportable Events or Medicare HACs
(n=128) (Continued)
                                                                                                   Harm
 Adverse Event                                                                                                        Preventability                 NQF        HAC
                                                                                                   Level

 Events Related to Medication (continued)
 Delirium or change in mental status (7)
   1. Cascade event in which narcotic analgesic (hydromorphone)
      induced delirium, which led to use of physical restraints, patient                               F                       CP
      pulling out IVs, and patient fall
   2. Cascade event in which narcotic analgesic (oxycodone) induced
                                                                                                       F                       CP
      delirium and resulted in patient fall
   3. Confusion secondary to narcotic analgesics (dextropropoxyphene
                                                                                                       F                       CP
      with acetaminophen)
   4. Delirium secondary to sedative (benzodiazepine)                                                  F                     CNP
   5. Hallucinations and delirium secondary to antiwithdrawal medication
                                                                                                       F                      CNP
      (naloxone)
   6. Hallucinations and delirium secondary to narcotic analgesic
                                                                                                       F                       LP
      (hydromorphone)
   7. Mental status change due to narcotic analgesic (morphine)                                        F                       CP
 Hypoglycemic event (6)
   1. Episode of severe hypoglycemia secondary to insulin management                                   H                      LNP
   2. Hypoglycemic coma secondary to insulin management                                                H                       LP
   3. Hypoglycemic coma secondary to insulin management                                                I                       LP
   4. Hypoglycemic coma and permanent brain injury secondary to
      insulin management in patient with anoxic encephalopathy                                         G                       CP
      following cardiac arrest
   5. Multiple episodes of severe hypoglycemia secondary to insulin
                                                                                                       H                       CP
      management
   6. Recurrent hypoglycemia secondary to diabetes medication
                                                                                                       F                       CP
      (glipizide)
 Acute renal insufficiency (kidney failure) (4)
   1. Acute renal failure secondary to antihypertensives and diuretics
                                                                                                       F                      LNP
      (unspecified)
   2. Acute renal failure secondary to blood pressure medication
                                                                                                       F                       LP
      (enalapril)
   3. Acute renal failure and permanent decrease of renal function
                                                                                                       G                       LP
      secondary to dehydration from diuretic (furosemide)
   4. Severe acute renal insufficiency and dehydration secondary to
                                                                                                       F                      LNP
      diuretics (bumetanide and spironolactone)
 Severe hypotension (4)
   1. Hypotension secondary to narcotic analgesic (hydromorphone)                                      F                       LP
   2. Hypotension secondary to diuretics (unspecified)                                                 F                       LP
   3. Hypotension secondary to multiple psychiatric medications
                                                                                                       F                       LP
      (mirtazapine, risperidone, and sertraline)
   4. Hypotension secondary to multiple sedatives (ketamine,
                                                                                                       H                      CNP
      lorazepam, and propofol)
 Respiratory complication (4)
   1. Acute hypercarbic respiratory failure (excess oxygen)                                            H                       LP
   2. Cascade event in which narcotic analgesic (hydromorphone) led to
                                                                                                       H                       LP
      respiratory failure and recurrent somnolence
   3. Respiratory depression secondary to antianxiety medication
                                                                                                       H                       LP
      (lorazepam) and narcotic analgesic (morphine)
   4. Respiratory failure secondary to sedative (benzodiazepine)                                        I                      CP                        
 Severe allergic reaction (3)
   1. Failure to diagnose Stevens-Johnson Syndrome secondary to
                                                                                                       F                       LP
      anticonvulsants (carbamazepine and phenytoin)
   2. Hives and shortness of breath due to allergic reaction to antibiotic                             F                     CNP
   3. Throat swelling due to allergic reaction to blood transfusion                                    H                     CNP
                                                                                                                                                  continued on next page




       OEI-06-09-00090         ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         52


   A    P   P    E    N   D    I    X      ~         H

Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
Whether the Events Were NQF Serious Reportable Events or Medicare HACs
(n=128) (Continued)
                                                                                                        Harm
 Adverse Event                                                                                                            Preventability                 NQF        HAC
                                                                                                        Level

 Events Related to Patient Care (36)
 Intravenous (IV) volume overload (10)
  1. Cascade event in which cessation of diuretic (furosemide) and
                                                                                                            H                      LP
     administration of excess saline led to acute pulmonary edema
  2. Cascade event in which IV volume overload led to mild congestive
     heart failure and subsequent treatment with diuretic (furosemide) led                                  F                     LNP
     to hypokalemia
  3. Hypoxic respiratory failure secondary to IV volume overload                                            H                     LNP
  4. Hypoxic respiratory failure secondary to IV volume overload                                            H                      LP
  5. IV volume overload with associated leg edema and complicated by
                                                                                                            F                     LNP
     preexisting pneumonia
  6. Pleural effusions and intermittent dyspnea secondary to IV volume
                                                                                                            F                     LNP
     overload
  7. Pulmonary edema and effusions secondary to IV volume overload                                          F                    CNP
  8. Pulmonary edema and respiratory distress secondary to IV volume
                                                                                                            H                      LP
     overload
  9. Respiratory failure secondary to IV volume overload                                                    H                      LP
 10. Respiratory insufficiency and reintubation secondary to IV volume
                                                                                                            F                     LNP
     overload
 Aspiration (8)
   1. Aspiration associated with feeding tube placement                                                     F                     LP
   2. Aspiration pneumonia associated with food intake                                                      I                    UTD
   3. Aspiration pneumonia associated with unspecified infiltrate                                           F                     LP
   4. Aspiration pneumonia associated with unspecified infiltrate                                           F                    LNP
   5. Aspiration pneumonitis associated with unspecified infiltrate                                         F                     LP
   6. Cascade event in which aspiration led to respiratory failure, acute
                                                                                                             I                   UTD
       renal failure, shock, and cardiac arrest
   7. Cascade event in which recurrent aspiration led to infection                                          F                      LP
   8. Cascade event in which episode of vomiting led to aspiration
                                                                                                            F                     LNP
       pneumonia in patient with congestive heart failure
 Venous thrombosis or pulmonary embolism (5)
   1. Bilateral deep venous thrombosis                                                                      F                     LP
   2. Bilateral pulmonary emboli                                                                            F                     LP
   3. Deep venous thrombosis secondary to central catheter                                                  F                    UTD
   4. Multiple pulmonary emboli (right pulmonary artery)                                                    F                     LP
   5. Venous thrombosis (saphenous vein)                                                                    F                    LNP
 Exacerbation of preexisting medical condition (5)
   1. Cascade event in which failure to diagnose hypotension and septic
                                                                                                            H                      CP
       shock led to severe hypotension
   2. Cascade event in which failure to diagnose postoperative bowel
       distension led to toxic megacolon, bowel perforation, abdominal                                      H                    UTD
       sepsis, and shock
   3. Progressive respiratory difficulties resulting from failure to complete
                                                                                                            F                      LP
       congestive heart failure therapy
   4. Progressive respiratory difficulties resulting from failure to diagnose
                                                                                                            F                      LP
       hemothorax
   5. Progressive respiratory difficulties resulting from failure to diagnose
                                                                                                            F                      CP
       pulmonary infiltrate and pneumonia
 Stage III pressure ulcer (3)
   1. Progression from single stage II pressure ulcer to bilateral stage III
                                                                                                            E                      LP                                 
       pressure ulcers (buttocks)
   2. Progression from stage I pressure ulcer to stage III pressure ulcer                                                                                    
                                                                                                            E                      LP
       (heel)
   3. Stage III pressure ulcer (sacrum)                                                                     E                      LP                        

                                                                                                                                                      continued on next page



       OEI-06-09-00090             ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S           53

 A   P     P E N D         I X        ~       H




Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
Whether the Events Were NQF Serious Reportable Events or Medicare HACs
(n=128) (Continued)
                                                                                                      Harm
 Adverse Event                                                                                                          Preventability                 NQF        HAC
                                                                                                      Level

 Events Related to Patient Care (continued)
 Other events related to patient care (5)
   1. Breakdown of surgical wound                                                                         F                    UTD
   2. Congestive heart failure resulting from failure to manage high blood
                                                                                                          F                    LNP
      pressure
   3. Hypoxia resulting from failure to stabilize tracheostomy and provide
                                                                                                          H                     CP
      oxygen during transfer
   4. Severe back pain and possible vertebral compression fracture from                                                                                             
                                                                                                          F                    CNP
      patient fall
   5. Significant episode of weakness and dizziness associated with an
                                                                                                          F                      LP
      exacerbation of hyponatremia
 Events Related to Surgery or Other Procedures (33)
 Excessive bleeding (5)
   1. Bleeding for several days following colonoscopy                                                     F                    LNP
   2. Bleeding from femoral artery following IV placement                                                 F                    LNP
   3. Cascade event in which hemorrhage of femoral artery at puncture
                                                                                                          H                      LP
      site led to shock, apnea, and ultimately a myocardial infarction
   4. Cascade event in which premature removal of dialysis needle
                                                                                                          H                     CP
      resulted in excessive bleeding, shock, intubation, and aspiration
   5. Hematoma following knee arthroplasty                                                                F                      LP
 Severe hypotension (4)
   1. Hypotension during hemodialysis treatment                                                           F                    LNP
   2. Hypotension following cardiac surgery                                                               F                    LNP
   3. Hypotension following endoscopic procedure                                                          H                    CNP
   4. Hypotension with atrial fibrillation and rapid ventricular response
                                                                                                          F                      LP
      following dialysis treatment
 Respiratory complication (4)
   1. Agonal breathing following premature extubation                                                     H                     CP
   2. Cascade event in which acute respiratory failure following
                                                                                                          F                    LNP
      cardiac procedure led to hematuria and hemoptysis
   3. Cascade event in which angioedema secondary to contrast
      used for fistulogram led to intubation, ventilator-associated                                       I                    CNP
      pneumonia, and shock
   4. Respiratory distress following percutaneous tracheostomy                                            H                    CNP
 Iatrogenic pneumothorax (3)
   1. Cascade event in which postoperative pneumothorax led to acute
                                                                                                          H                    LNP
      respiratory failure
   2. Cascade event in which removal of chest tube led to pneumothorax,
                                                                                                          H                    LNP
      reinsertion of chest tube, and reintubation
   3. Pneumothorax following chest tube placement                                                         F                    CNP
 Postoperative ileus (3)
   1. Cascade event in which outpatient surgery to repair hernia following
      cholecystectomy led to hospitalization for postoperative hypoxemia,                                 F                    LNP
      atelectasis, and ileus
   2. Significant ileus following partial colon resection                                                 F                    CNP
   3. Significant ileus following partial colon resection                                                 F                    LNP

                                                                                                                                                    continued on next page




         OEI-06-09-00090       ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S          54

   A   P    P E N D          I X         ~       H




Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
Whether the Events Were NQF Serious Reportable Events or Medicare HACs
(n=128) (Continued)
                                                                                                    Harm
 Adverse Event                                                                                                        Preventability                 NQF        HAC
                                                                                                    Level

 Events Related to Surgery or Other Procedures (continued)
 Postoperative urinary retention (3)
   1. Postoperative urinary retention associated with indwelling urinary
                                                                                                        F                     LNP
      catheter
   2. Postoperative urinary retention associated with indwelling urinary
                                                                                                        F                      LP
      catheter
   3. Postoperative urinary retention associated with urinary catheter                                  F                     LNP
 Acute coronary syndrome (2)
   1. Acute coronary syndrome following laparoscopic cholecystectomy
                                                                                                        G                    CNP
      and resulting in permanent damage to heart muscle
   2. Acute coronary syndrome that developed as a complication of
                                                                                                        F                    CNP
      percutaneous coronary intervention
 Blood clots and other occlusions (blockage within a blood vessel) (2)
   1. Acute occlusion of the popliteal artery following colonoscopy and
                                                                                                        G                    CNP
      partial colon resection
   2. Pericardial blood clot following cardiac surgery                                                  F                     LNP
 Cardiac complication (2)
   1. Atrial fibrillation following mitral valve replacement surgery                                    H                    CNP
   2. Severe ventricular tachycardia following coronary artery bypass
                                                                                                        H                    CNP
      graft
 Other procedure-related complication (5)
   1. Cascade event in which coronary bypass surgery led to complex
                                                                                                        H                     LNP
      tachycardia complicated by hypotension
   2. Cascade event in which complications following bowel surgery
                                                                                                        F                     LNP
      resulted in surgical site hemorrhage
   3. Delay in surgery because of equipment malfunction                                                 F                      LP
   4. Hematuria due to indwelling urinary catheter-associated trauma                                    F                     LNP
   5. Seroma (pocket of fluid) following stomach resection                                              F                     LNP
 Events Related to Infection (19)
 Urinary tract infection (5)
   1. Cascade event in which cystoscopy eroded artificial urethral
      sphincter necessitating use of urinary catheter which led to urinary                              G                      LP                                 
      tract infection (E. coli)
   2. Urinary tract infection (E. coli) associated with urinary catheter                                F                      LP                                 
   3. Urinary tract infection (E. coli) associated with urinary catheter                                E                      LP                                 
   4. Urinary tract infection (Klebsiella) associated with urinary catheter                             E                      LP                                 
   5. Urinary tract infection (Serratia) associated with urinary catheter                               E                      LP                                 
 Vascular catheter-associated infection (central or peripheral line) (4)
   1. Cascade event in which vascular catheter led to sepsis, deep vein                                                                                           
                                                                                                        F                      LP
      thrombosis, and pulmonary embolism
   2. Cascade event in which vascular catheter led to septicemia and                                                                                              
                                                                                                        F                      LP
      deep vein thrombosis
   3. Forearm cellulitis (inflammation of skin or connective tissue)
                                                                                                        F                      CP
      following vascular catheter insertion
   4. Methicillin-resistant Staphylococcus aureus (MRSA) infection
                                                                                                        H                      LP
      following pleural catheter insertion

                                                                                                                                                  continued on next page




       OEI-06-09-00090         ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S          55

A       P    P E N D             I X          ~        H



    Table H-1: Adverse Events by Clinical Category, Harm Level, Preventability, and
    Whether the Events Were NQF Serious Reportable Events or Medicare HACs
    (n=128) (Continued)
                                                                                                                   Harm
       Adverse Event                                                                                                                 Preventability                  NQF   HAC
                                                                                                                   Level

       Events Related to Infection (continued)
       Other bloodstream infections (excluding vascular catheter-associated
       Infections) (4)
         1. Cascade event in which failure to treat systemic inflammatory
            response syndrome led to acute renal failure and aspiration                                                 I                     CP
            pneumonia
         2. Cascade event in which removal of urinary catheter led to
            recurrence of obstructive uropathy, renal failure, sepsis, and                                             G                      CP
            permanent deterioration of renal function
         3. Cascade event in which untreated febrile neutropenia led to septic
                                                                                                                        I                     CP
            shock
         4. Sepsis (methicillin-resistant Staphylococcus epidermis)                                                    F                     LNP
       Respiratory infection (4)
         1. Pneumonia (MRSA) following abdominal surgery                                                               F                     LNP
         2. Pneumonia (unspecified) following knee surgery                                                             F                     LNP
         3. Ventilator-associated pneumonia (Klebsiella)                                                               F                     LNP
         4. Ventilator-associated pneumonia (MRSA)                                                                     H                     LNP
       Surgical or procedural site infection (2)
         1. Cascade event in which anastomotic leak following colectomy led to
                                                                                                                       F                      LP
            abscesses and bacteremia
         2. Surgical site infection following foot surgery                                                             F                     LNP
    Source: Office of Inspector General (OIG) analysis of hospital stays for 780 Medicare beneficiaries in October 2008.




       OEI-06-09-00090             ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         56

   A   P   P E N D           I X         ~       H




Table H-2: Temporary Harm Events, E Level on the NCC MERP Index, Identified
Among Medicare Beneficiaries by Clinical Category (n=174 )

 Temporary Harm Event                                                                                                                          Preventability

 Events Related to Medication (73)
 Delirium or change in mental status (22)
   1. Altered mental status secondary to narcotic analgesic (fentanyl) and sedative
                                                                                                                                                       LP
      (midazolam)
   2. Cascade event in which delirium secondary to antipsychotic (haloperidol) led to patient
                                                                                                                                                       LP
      pulling catheter out which resulted in hematuria
   3. Confusion and delirium secondary to narcotic analgesics (hydromorphone and
                                                                                                                                                       LP
      morphine)
   4. Confusion secondary to narcotic analgesic (hydromorphone)                                                                                       LP
   5. Confusion secondary to sedative (benzodiazepine)                                                                                                LP
   6. Delirium secondary to anticonvulsants (valproic acid)                                                                                          CNP
   7. Delirium secondary to local anesthetic (lidocaine)                                                                                             CNP
   8. Delirium secondary to narcotic analgesic (hydromorphone)                                                                                        LP
   9. Delirium secondary to narcotic analgesic (hydrocodone with acetaminophen)                                                                       LP
  10. Delirium secondary to narcotic analgesic (morphine)                                                                                            CNP
  11. Drowsiness secondary to narcotic analgesic (hydromorphone)                                                                                     LNP
  12. Hallucinations and delirium secondary to narcotic analgesic (morphine)                                                                         LNP
  13. Hallucinations secondary to sedative (alprazolam) and multiple narcotic analgesics                                                             UTD
  14. Lethargy secondary to narcotic analgesic (hydromorphone)                                                                                        LP
  15. Lethargy secondary to narcotic analgesic (oxycodone with acetaminophen)                                                                         LP
  16. Omission of antidepressant (fluoxetine with olanzapine) that led to episode of acute
                                                                                                                                                       LP
      paranoia
  17. Oversedation secondary to antihistamine and sedative (promethazine)                                                                              LP
  18. Oversedation secondary to multiple psychiatric medications (alprazolam, haloperidol,
                                                                                                                                                     LNP
      and quetiapine)
  19. Oversedation secondary to narcotic analgesic (fentanyl) and sedative (midazolam)                                                               LNP
  20. Oversedation secondary to narcotic analgesic (hydromorphone)                                                                                    LP
  21. Paranoid delusions secondary to narcotic analgesics (hydromorphone and morphine)                                                                LP
  22. Somnolence secondary to narcotic analgesics (hydromorphone and morphine)                                                                        CP
 Hypoglycemic event (11)
   1. Hypoglycemia secondary to diabetes medication (glipizide)                                                                                      UTD
   2. Hypoglycemia secondary to glycemic management                                                                                                   CP
   3. Hypoglycemia secondary to glycemic management                                                                                                  LNP
   4. Hypoglycemia secondary to glycemic management                                                                                                  LNP
   5. Hypoglycemia secondary to glycemic management                                                                                                  LNP
   6. Hypoglycemia secondary to glycemic management                                                                                                   LP
   7. Hypoglycemia secondary to glycemic management                                                                                                   LP
   8. Hypoglycemia secondary to glycemic management                                                                                                   LP
   9. Hypoglycemia secondary to glycemic management                                                                                                   LP
  10. Hypoglycemia secondary to glycemic management                                                                                                   LP
  11. Volatile blood glucose secondary to insulin management                                                                                         LNP
 Thrush and other opportunistic infection (7)
   1. Fungal infection (cutaneous rash) secondary to antibiotics (unspecified)                                                                       CNP
   2. Thrush (Candidiasis) secondary to broad spectrum antibiotics (unspecified)                                                                     CNP
   3. Thrush (oropharyngeal Candida) secondary to antibiotics (piperacillin and tazobactam)                                                          CNP
   4. Thrush (unspecified) secondary to antibiotics (unspecified)                                                                                    LNP
   5. Thrush (unspecified) secondary to antibiotics and steroids (unspecified)                                                                       CNP
   6. Thrush (unspecified) secondary to antibiotics and steroids (unspecified)                                                                       CNP
   7. Thrush (unspecified) secondary to steroids (unspecified)                                                                                       CNP

                                                                                                                                                  continued on next page




       OEI-06-09-00090         ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         57

   A   P   P E N D           I X        ~       H




Table H-2: Temporary Harm Events, E Level on the NCC MERP Index, Identified
Among Medicare Beneficiaries by Clinical Category (n=174) (Continued)

 Temporary Harm Event                                                                                                                      Preventability

 Events Related to Medication (continued)
 Allergic reaction or side effect related to skin (6)
   1. Generalized pruritic (itching) rash secondary to narcotic analgesic (morphine)                                                                CNP
   2. Hives and facial swelling due to contrast used during cardiac catheterization                                                                 LNP
   3. Hives and significant itching secondary to narcotic analgesic (hydromorphone)                                                                 CNP
   4. Hives secondary to allergic reaction to antibiotics (moxifloxacin)                                                                            CNP
   5. Itching and erythema (redness) secondary to narcotic analgesic (hydromorphone)                                                                CNP
   6. Itching secondary to antibiotics (clindamycin and cephalosporin)                                                                              CNP
 Gastrointestinal complication (5)
   1. Allergic reaction (nausea and vomiting) to narcotic analgesics (hydromorphone)                                                                 CP
   2. Diarrhea secondary to antibiotic (amoxicillin and clavulanate)                                                                                UTD
   3. Nausea and vomiting secondary to hypertension therapy (nitroprusside)                                                                         LNP
   4. Nausea and vomiting secondary to narcotic analgesic (morphine)                                                                                LNP
   5. Severe diarrhea secondary to laxatives                                                                                                         LP
 Hypotension (5)
   1. Cascade event in which diuretic (furosemide) led to sinus tachycardia, renal
                                                                                                                                                      LP
      insufficiency, and hypotension
   2. Hypotension and dizziness secondary to antihypertensive medication (unspecified)                                                                LP
   3. Hypotension following administration of blood pressure medication (metoprolol)                                                                 CP
   4. Hypotension secondary to multiple antihypertensives (unspecified)                                                                               LP
   5. Low blood pressure secondary to aggressive diuresis (enalapril and furosemide)                                                                 LNP
 Dysrhythmia (3)
   1. Dysrhythmia secondary to beta-blocker (labetalol)                                                                                             LNP
   2. Dysrhythmia secondary to cardiac medication (digoxin)                                                                                          LP
   3. Palpitations and nausea secondary to bronchodilators (albuterol)                                                                              CNP
 Excessive bleeding (3)
   1. Epistaxis (nasal bleed) secondary to anticoagulant (enoxaparin)                                                                               CNP
   2. Gross hematuria secondary to anticoagulant (heparin)                                                                                          CNP
   3. Hematuria secondary to anticoagulant (enoxaparin)                                                                                             LNP
 Severe headache or dizziness (3)
   1. Extended period of dizziness secondary to opioid withdrawal medication
                                                                                                                                                      LP
      (buprenorphine)
   2. Headache secondary to cardiac medication (nitroglycerine)                                                                                      LP
   3. Nausea and headache secondary to cardiac medication (nitroglycerine)                                                                          CNP
 Acute renal failure or insufficiency (2)
   1. Acute renal failure secondary to radiopaque contrast                                                                                          LNP
   2. Acute renal insufficiency secondary to multiple nephrotoxic agents, including kanamycin
                                                                                                                                                      CP
      and ketorolac
 Allergic reaction to blood or related products (2)
   1. Allergic reaction to blood transfusion                                                                                                        CNP
   2. Hives during infusion of fresh frozen plasma                                                                                                  CNP
 Respiratory complication (2)
   1. Hypoxia secondary to narcotic analgesic (meperidine)                                                                                            LP
   2. Respiratory acidosis secondary to narcotic analgesic (hydrocodone with
                                                                                                                                                      CP
      acetaminophen) and sedative (alprazolam)
 Other events related to medication (2)
   1. Fever secondary to antiulcer medication used to treat uterine atony (misoprostol)                                                             CNP
   2. Urinary retention secondary to narcotic analgesic (opioid)                                                                                    LNP

                                                                                                                                                 continued on next page




       OEI-06-09-00090        ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         58

   A   P   P E N D          I X         ~       H




Table H-2: Temporary Harm Events, E Level on the NCC MERP Index, Identified
Among Medicare Beneficiaries by Clinical Category (n=174 ) (Continued) (

 Temporary Harm Event                                                                                                                      Preventability

 Events Related to Patient Care (63)
 Stage I, Stage II, or unstaged pressure ulcer (20)
   1. Bilateral stage I pressure ulcer (buttocks)                                                                                                    LP
   2. Deep tissue injury (buttock)                                                                                                                  LNP
   3. Progression from stage I pressure ulcer to stage II pressure ulcer (coccyx)                                                                   CNP
   4. Progression from stage I pressure ulcer to stage II pressure ulcer (coccyx)                                                                   LNP
   5. Progression from stage I pressure ulcer to stage II pressure ulcer (coccyx)                                                                   LNP
   6. Stage I pressure ulcer (coccyx)                                                                                                               LNP
   7. Stage I pressure ulcer (coccyx)                                                                                                               LNP
   8. Stage I pressure ulcer (heel)                                                                                                                  LP
   9. Stage I pressure ulcer (sacrum)                                                                                                                LP
  10. Stage I pressure ulcer (sacrum and buttocks)                                                                                                   LP
  11. Stage I pressure ulcer (unspecified location)                                                                                                  LP
  12. Stage I pressure ulcer secondary to restraints (sacrum and buttock)                                                                            LP
  13. Stage II pressure ulcer (buttock)                                                                                                              LP
  14. Stage II pressure ulcer (buttock)                                                                                                              LP
  15. Stage II pressure ulcer (buttock)                                                                                                             UTD
  16. Stage II pressure ulcer (heel and ankle)                                                                                                       LP
  17. Stage II pressure ulcer (sacrum)                                                                                                              CNP
  18. Stage II pressure ulcer (sacrum) and stage I pressure ulcer (heel)                                                                            LNP
  19. Stage II pressure ulcer (unspecified location)                                                                                                 LP
  20. Unstaged pressure ulcer (sacrum)                                                                                                              LNP
 IV volume overload (15)
   1. Anasarca secondary to IV fluid resuscitation                                                                                                  LNP
   2. Bilateral pulmonary effusion and pulmonary edema secondary to IV volume overload                                                               LP
   3. Cascade event in which excessive IV fluids administered after a procedure led to
                                                                                                                                                      LP
      volume overload and hyponatremia
   4. Cascade event in which IV volume overload during a procedure led to acute respiratory
                                                                                                                                                      LP
      distress
   5. Cascade event in which the delay of a procedure led to the transfusion of additional
                                                                                                                                                    UTD
      blood products and resulted in dyspnea
   6. Dyspnea and pulmonary congestion secondary to IV volume overload                                                                              LNP
   7. Dyspnea and pulmonary edema secondary to IV volume overload of contrast agent                                                                  LP
   8. Dyspnea and pulmonary edema secondary to IV volume overload                                                                                    LP
   9. Dyspnea secondary to fluid overload of contrast agent used during arteriogram                                                                 LNP
  10. Dyspnea secondary to IV volume overload of fluids to correct bowel obstruction                                                                 LP
  11. Postoperative congestive heart failure secondary to IV volume overload                                                                        LNP
  12. Pulmonary edema secondary to IV volume overload                                                                                                LP
  13. Pulmonary edema secondary to postoperative IV volume overload                                                                                 LNP
  14. Vascular congestion secondary to fluid resuscitation                                                                                          LNP
  15. Vascular congestion secondary to IV volume overload of fresh frozen plasma                                                                     LP
 Skin tear, laceration, abrasion, or other breakdown (9)
   1. Blisters from telemetry leads (chest)                                                                                                         CP
   2. Laceration during transfer to CT table (ankle)                                                                                                 CP
   3. Skin abrasion from tape removal (IV site)                                                                                                     CNP
   4. Skin breakdown with inflammation and drainage (upper arm)                                                                                     LNP
   5. Skin breakdown with tear (sacrum)                                                                                                              LP
   6. Skin tear (elbow)                                                                                                                             LNP
   7. Skin tear (wrist)                                                                                                                             LNP
   8. Skin tear from prosthesis (heel)                                                                                                              LNP
   9. Skin tears from patient turning (elbow and hand)                                                                                              LNP

                                                                                                                                                 continued on next page




       OEI-06-09-00090        ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         59

   A   P    P E N D          I X         ~       H



Table H-2: Temporary Harm Events, E Level on the NCC MERP Index, Identified
Among Medicare Beneficiaries by Clinical Category (n=174) (Continued)

 Temporary Harm Event                                                                                                                      Preventability

 Events Related to Patient Care (continued)
 IV infiltrate with symptoms (6)
   1. Cellulitis secondary to IV infiltrate                                                                                                         LNP
   2. IV infiltrate with pain and inflammation                                                                                                      LNP
   3. IV infiltrate with pain and inflammation                                                                                                      LNP
   4. IV infiltrate with pain, inflammation, and edema                                                                                              LNP
   5. Superficial phlebitis secondary to IV infiltrate                                                                                               LP
   6. Thrombophlebitis secondary to IV infiltrate                                                                                                   UTD
 Patient fall with injury (5)
   1. Arm and shoulder injury resulting from patient fall                                                                                            LP
   2. Chest injury resulting from patient fall                                                                                                      LNP
   3. Shoulder contusion and delay in surgery resulting from patient fall                                                                           LNP
   4. Skin tear/abrasion on knees resulting from patient fall                                                                                        CP
   5. Status epilepticus resulting from patient fall with head trauma                                                                                LP
 Aspiration (3)
   1. Aspiration associated with endotracheal tube leak                                                                                             LNP
   2. Aspiration associated with procedure-related infiltrate                                                                                        LP
   3. Aspiration pneumonitis associated with patient’s secretions                                                                                   CNP
 Failure to treat constipation or obstipation (3)
   1. Exacerbation of constipation (impaction) secondary to narcotic analgesic
                                                                                                                                                     LP
      (hydromorphone) due to failure to provide sufficient treatment
   2. Exacerbation of constipation secondary to increase in narcotic analgesics (unspecified)
                                                                                                                                                     LP
      due to failure to provide sufficient treatment
   3. Extended period of constipation due to failure to provide sufficient treatment                                                                 LP
 Tachycardia or dysrhythmia (2)
   1. Nonsustained ventricular tachycardic dysrhythmia                                                                                               LP
   2. Paroxysmal supraventricular tachycardia                                                                                                       UTD
  Events Related to Surgery or Other Procedures (32)

 Urinary retention (8)
   1. Postoperative urinary retention associated with indwelling catheter                                                                           CNP
   2. Postoperative urinary retention associated with indwelling catheter                                                                            LP
   3. Postoperative urinary retention associated with indwelling catheter                                                                            LP
   4. Postoperative urinary retention associated with straight catheter                                                                             LNP
   5. Postoperative urinary retention associated with straight catheter                                                                             CNP
   6. Postoperative urinary retention following back surgery                                                                                        LNP
   7. Postoperative urinary retention following hip surgery                                                                                         LNP
   8. Postoperative urinary retention following hip surgery                                                                                         LNP
 Excessive bleeding (6)
   1. Anemia following hip surgery                                                                                                                  LNP
   2. Bleeding from femoral catheter site                                                                                                           LNP
   3. Bleeding from femoral catheter site following dialysis                                                                                        LNP
   4. Hematoma and bleeding from IV site                                                                                                             LP
   5. Hematoma and drop in hemoglobin following hip surgery                                                                                         LNP
   6. Hematoma secondary to IV extravasation                                                                                                        LNP
 Cardiac complication (4)
   1. Atrial fibrillation and palpitations following thoracotomy                                                                                    CNP
   2. Atrial fibrillation following cystoscopy                                                                                                      LNP
   3. Minor myocardial infarction following neck surgery                                                                                            CNP
   4. Paroxysmal supraventricular tachycardia following surgery                                                                                     LNP

                                                                                                                                                  continued on next page




       OEI-06-09-00090         ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S         60

     A    P    P E N D             I X         ~        H




Table H-2: Temporary Harm Events, E Level on the NCC MERP Index, Identified
Among Medicare Beneficiaries by Clinical Category (n=174) (Continued)

  Temporary Harm Event                                                                                                                            Preventability

  Events Related to Surgery or Other Procedures (continued)
  Surgical tear or laceration (3)
   1. Dural tear during discectomy and spinal decompression                                                                                                LNP
   2. Dural tear during laminectomy                                                                                                                        LNP
   3. Unintentional enterotomy during surgery to relieve bowel obstruction                                                                                 LNP
  Urinary catheter-related trauma (3)
   1. Hematuria associated with indwelling urinary catheter                                                                                                LNP
   2. Postoperative hematuria associated with indwelling urinary catheter                                                                                  CNP
   3. Postoperative hematuria associated with indwelling urinary catheter                                                                                  LNP
  Prolonged nausea and vomiting (2)
   1. Prolonged nausea and vomiting following spinal surgery                                                                                               LNP
   2. Prolonged nausea and vomiting secondary to anesthetic given for dilation and curettage                                                               CNP
  Postoperative or postprocedural hypotension (2)
   1. Hypotension following cardiac procedure                                                                                                               LP
   2. Hypotension following nephrectomy                                                                                                                    LNP
  Respiratory complication (2)
   1. Dyspnea following nephrectomy                                                                                                                        UTD
   2. Hypoxemia following shoulder arthroplasty                                                                                                            UTD
  Other events related to surgery or other procedures (2)
   1. Gout following pacemaker placement procedure                                                                                                         CNP
   2. Ileus following hip arthroplasty                                                                                                                     LNP
  Events Related to Infection (6)
  Surgical site infection (2)
    1. Surgical site infection following colostomy procedure                                                                                               LNP
    2. Surgical site infection following hip surgery                                                                                                        LP
  Bacterial infection (1)
    1. Bacterial parotiditis (glandular) infection                                                                                                         LNP
  Respiratory infection (1)
    1. Postoperative pneumonia                                                                                                                             LNP
  Urinary tract infection (1)
    1. Urinary tract infection related to urostomy                                                                                                         LNP
  Vascular catheter-associated infection (1)
    1. Infectious phlebitis at catheter insertion site                                                                                                      LP
Source: OIG analysis of hospital stays for 780 Medicare beneficiaries in October 2008.




         OEI-06-09-00090            ADVERSE EVENTS     IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   61
      A P PEN 0                           x


      Agency Comments: Agency for Healthcare Research and Quality



                     DEPARTMENT OF HEALTH AND HUMAN SERVICES 	                                      Agency for Healthcar.
                                                                                                    Research and Quality


                                                                                                    540 Gaither Road
                                                                                                    Rockville, MD 20850
                     SEP 2 2 2010                                                                   www.ahrq.gov


                  TO: 	           Daniel R, Levinson 

                                  Inspector General 


                  FROM: 	         Carolyn M. Clancy, MD 
   /S/
                                  Director 


                  SUBJECT: 	      AHRQ Response to OIG draft report, Adverse Events in Hospitals: National Incidence
                                  Among Medicare Beneficiaries, OEI-06-09-00090.

                  Thank you for the opportunity to review your draft report, Adverse Events in Hospitals: National
                  Incidence Among Medicare Beneficiaries, OEI-06-09-00090 . .The findings in the report are consistent
                  with previous studies but are nonetheless disturbing. They confirm that adverse events continue to
                  affect hospital inpatients at an alarming rate, and that the types of events that occur vary widely, The
                  report reaffirms AHRQ's need to continue work on improving patient safety by broadening investigation
                  to include areas that are not always seen on lists of adverse events that should never occur or should
                  always be reported.

                  Responses are provided below to the report's two general recommendations that pertain to AHRQ and
                  were provided in the July 20, 2010, draft version of the report that the Agency reviewed. AHRQ concurs
                  with both OIG recommendations.            .

                  Recommendation: AHRQ and CMS should broaden patient safety efforts to include all types of adverse
                  events.

                  AHRQ Response: CONCUR

                  AHRQ agrees that efforts to improve patient safety should be broad. While we have sponsored efforts
                  to address specific types of adverse events, such as central-line-associated bloodstream infections and
                  venous thromboembolisms, we have also supported efforts to address underlying causes that
                  contribute to a wide variety of adverse events. For example, we have focused on improving the safety
                  culture in healthcare by providing a widely-adopted patient safety culture survey that is used by
                  hospitals and healthcare systems, and by providing team training to healthcare systems via the
                  TeamSTEPPS program that we developed in concert with the Department of Defense. We have also
                  provided broad in-person training on the topic of patient safety improvement to public sector and
                  private sector representatives from every state via the Patient Safety Improvement Corps, which we
                  implemented in concert with the Department of Veterans Affairs' National Center for Patient Safety. As
                  we continue to lead and support Federal efforts in patient safety improvement, we intend to broaden
                  efforts to improve patient safety overall (as with TeamSTEPPS), and to address specific problems, such
                  as a targeted program to foster the widespread implementation of the CDC's guideline to prevent
                  catheter-associated urinary tract infections.




                                                                     1




OEI·06·09·00090           ADVERSE EVENTS IN HOSPITALS:       NATIONAL INCIDENCE AMONG MEDICARE BENEFICIARIES                 62

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   63
APPEND                        X



      Agency Comments: Centers for Medicare & Medicaid Services




      (-I..
       /$.U.Vlcq.~




                        DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Center. for Medicare & Medicaid Servicas

       ,,~~~
        ....... (; 
                                                                              Administrator
                                                                                                  Washington, DC 20201




                     DATE:
                                   SEP 0 92010

                     TO:             Daniel R. Levinson 	                                                               ,..."
                                                                                                                        '=
                                     Inspector General                                                                  ~";)

                                                                                                                        C/)      ')
                                                              /S/                                           Cl'         ",
                                                                                                                        -u       '1
                     FROM:                                                                                  ""'11' ..
                                                                                                           :1':"                )
                                                                                                           n:.
                                                                                                           ",.
                                                                                                                        W       '~1




                     Thank. you for the opportunity to review and comment on the subject OIG Draft Report,
                     "Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries, OEI-06-09­
                     00090." We appreciate the OIG's work on this important and timely topic. When one in eight
                     hospitalized Medicare beneficiaries experience an adverse event, most of which result in a
                     prolonged hospital stay, permanent harm, life-saving interventions, or death, solutions need to be
                     addressed as quickly and efficiently as possible. The Centers for Medicare & Medicaid Services
                     (CMS) has taken significant steps to address these issues, but more work needs to be done.

                     The report's findings provide new information to the Department of Health and Human Services
                     (HHS) broadly, and the Centers for Medicare & Medicaid Services (CMS) specifically, upon
                     which to act to expand efforts to work with hospitals and clinicians to prevent adverse events.
                     CMS seeks to promote a culture of safety across the country in all health care settings. While the
                     report characterizes CMS as an oversight entity and the nation's largest health payer, CMS is
                     also actively transitioning from serving solely as a regulator and passive payer of health care
                     services to an agency that fully supports public health goals as an active payer of high quality
                     and efficient care.

                     CMS is also an engine for innovation across health care. Several new legislative and regulatory
                     enarts, including the new Center for Medicare & Medicaid Il1novation, provide us with new and
                     innovative tools to address the concerns raised in this report. In addition, we plan to continue
                     several efforts already in progress to reduce adverse events. While this response focuses on
                     adverse events in hospitalized patients, our efforts are also directed at addressing issues in
                     dialysis centers and ambulatory and long term care settings, recognizing that in our dynamic and
                     complex healthcare system a patient should expect and receive safe care, wherever that care may
                     be provided.

                     While we have a number of efforts already underway (as discussed throughout this response), we
                     are launching a number of new efforts to infuse a cross-cutting theme of safety throughout the
                     agency to promote a coordinated effort among existing and emerging programs. These are all
                     designed to create incentives for and support to hospitals to identify adverse events, practices to




OEI-06·09-00090            ADVERSE EVENTS IN HOSPITALS:     NATIONAL INCIDENCE AMONG MEDICARE BENEFICIARIES                           64

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   65

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   66

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   67

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   68

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   69

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   70

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   71

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   72

A P P E N D I X               ~         I




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   73


       A C K N O W L E D G M E N T S


                      This report was prepared under the direction of Kevin K. Golladay,
                      Regional Inspector General for Evaluation and Inspections in the Dallas
                      regional office, and A. Blaine Collins, Deputy Regional Inspector
                      General.

                      Amy Ashcraft and Ruth Ann Dorrill served as the team leaders for this
                      study. Other principal Office of Evaluation and Inspections staff from
                      the Dallas regional office who contributed to the report include Deborah
                      Cosimo, Nathan Dong, Ben Gaddis, Jennifer Gist, Anthony
                      Guerrero-Soto, Deborah McGurk, and Jeremy Moore; central office staff
                      who contributed include Rob Gibbons, Sandy Khoury, Sue Nonemaker,
                      Arianne Spaccarelli, and Rita Wurm.




    OEI-06-09-00090   ADVERSE EVENTS   IN   H O S P I TA L S : N AT I O N A L I N C I D E N C E A M O N G M E D I C A R E B E N E F I C I A R I E S   74
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

                   Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

                   Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

                   Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

                   Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
